<html>
<title> - DOE MODERNIZATION: ADVANCING THE ECONOMIC AND NATIONAL SECURITY BENEFITS OF AMERICA'S NUCLEAR INFRASTRUCTURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





    DOE MODERNIZATION: ADVANCING THE ECONOMIC AND NATIONAL SECURITY 
              BENEFITS OF AMERICA'S NUCLEAR INFRASTRUCTURE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 6, 2018

                               __________

                           Serial No. 115-97



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
30-989 PDF                WASHINGTON : 2018                 































                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan7
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                         Subcommittee on Energy

                          FRED UPTON, Michigan
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               SCOTT H. PETERS, California
ROBERT E. LATTA, Ohio                GENE GREEN, Texas
GREGG HARPER, Mississippi            MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     KATHY CASTOR, Florida
ADAM KINZINGER, Illinois             JOHN P. SARBANES, Maryland
H. MORGAN GRIFFITH, Virginia         PETER WELCH, Vermont
BILL JOHNSON, Ohio                   PAUL TONKO, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
MARKWAYNE MULLIN, Oklahoma               Massachusetts
RICHARD HUDSON, North Carolina       G.K. BUTTERFIELD, North Carolina
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)

                                  (ii) 
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     2
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7

                               Witnesses

Edward G. McGinnis, Principal Deputy Assistant Secretary for 
  Nuclear Energy, Department of Energy...........................     9
    Prepared statement...........................................    11
    Answers to submitted questions...............................   182
Art Atkins, Associate Deputy Administrator for Global Material 
  Security, Office of Defense Nuclear Nonproliferation, National 
  Nuclear Security Administration, Department of Energy..........    18
    Prepared statement...........................................    20
    Answers to submitted questions...............................   189
James Owendoff, Principal Deputy Assistant Secretary for 
  Environmental Management, Department of Energy.................    24
    Prepared statement...........................................    26
    Answers to submitted questions...............................   193
Victor M. McCree, Executive Director for Operations, Nuclear 
  Regulatory Commission..........................................    30
    Prepared statement...........................................    32
    Answers to submitted questions...............................   197
William C. Ostendorff, Distinguished Visiting Professor of 
  National Security Studies, U.S. Naval Academy..................    66
    Prepared statement...........................................    69
Mark Peters, Ph.D., Director, Idaho National Laboratory..........    73
    Prepared statement...........................................    76
    Answers to submitted questions...............................   205
Maria G. Korsnick, President and Chief Executive Officer, Nuclear 
  Energy Institute...............................................    84
    Prepared statement...........................................    86
David C. Trimble, Director, Natural Resources and Environment, 
  Government Accountability Office...............................   104
    Prepared statement...........................................   106
Ashley E. Finan, Ph.D., Policy Director, Nuclear Innovation 
  Alliance.......................................................   141
    Prepared statement...........................................   143
    Answers to submitted questions...............................   210

                           Submitted Material

Letter of February 5, 2018, from Jon J. Indall, Counsel for 
  Uranium Producers of America, to Mr. Upton and Mr. Rush, 
  submitted by Mr. Olson.........................................   179

 
    DOE MODERNIZATION: ADVANCING THE ECONOMIC AND NATIONAL SECURITY 
              BENEFITS OF AMERICA'S NUCLEAR INFRASTRUCTURE

                              ----------                              


                       TUESDAY, FEBRUARY 6, 2018

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman of the subcommittee) presiding.
    Members present: Representatives Upton, Olson, Barton, 
Shimkus, Latta, Harper, Kinzinger, Griffith, Johnson, Long, 
Bucshon, Flores, Mullin, Hudson, Cramer, Walberg, Duncan, 
Walden (ex officio), Rush, McNerney, Peters, Green, Doyle, 
Castor, Sarbanes, Welch, Tonko, Loebsack, Schrader, Kennedy, 
Butterfield, and Pallone (ex officio).
    Staff present: Allie Bury, Legislative Clerk, Energy/
Environment; Kelly Collins, Staff Assistant; Jordan Davis, 
Director of Policy and External Affairs; Wyatt Ellertson, 
Professional Staff Member, Energy/Environment; Melissa 
Froelich, Chief Counsel, Digital Commerce and Consumer 
Protection; Adam Fromm, Director of Outreach and Coalitions; 
Jordan Haverly, Policy Coordinator, Environment; Zach Hunter, 
Communications Director; A.T. Johnston, Senior Policy Advisor, 
Energy; Ben Lieberman, Senior Counsel, Energy; Mary Martin, 
Deputy Chief Counsel, Energy & Environment; Brandon Mooney, 
Deputy Chief Energy Advisor; Mark Ratner, Policy Coordinator; 
Tina Richards, Counsel, Environment; Annelise Rickert, Counsel, 
Energy; Dan Schneider, Press Secretary; Peter Spencer, Senior 
Professional Staff Member, Energy; Jason Stanek, Senior 
Counsel, Energy; Madeline Vey, Policy Coordinator, Digital 
Commerce and Consumer Protection; Hamlin Wade, Special Advisor 
for External Affairs; Andy Zach, Senior Professional Staff 
Member, Environment; Priscilla Barbour, Minority Energy Fellow; 
Jeff Carroll, Minority Staff Director; Rick Kessler, Minority 
Senior Advisor and Staff Director, Energy and Environment; John 
Marshall, Minority Policy Coordinator; Alexander Ratner, 
Minority Policy Analyst; Andrew Souvall, Minority Director of 
Communications, Member Services, and Outreach; Tuley Wright, 
Minority Energy and Environment Policy Advisor; and C.J. Young, 
Minority Press Secretary.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Good morning. Welcome to our second DOE 
modernization hearing, which will consider various issues that 
affect the economic and national security benefits associated 
with maintaining and advancing our Nation's nuclear 
infrastructure.
    In 1954, Congress amended the Atomic Energy Act to provide 
for the peaceful, civilian use of nuclear energy, both domestic 
and abroad. Congress gave the Atomic Energy Commission--the 
predecessor agency of DOE and the NRC--the responsibility to 
oversee this nascent nuclear industry. And the nuclear industry 
in time achieved great success for the U.S., and contributed to 
global safety and security.
    Today, more than 60 years later, many Atomic Energy Act 
provisions remain unchanged. Yet the world nuclear outlook has 
changed dramatically, and certain policies governing domestic 
involvement and participation in global markets really no 
longer reflect reality.
    The U.S. is no longer the undisputed leader in civilian 
nuclear technology. Four hundred and forty commercial nuclear 
power reactors operate in 31 countries, with additional 
countries pursuing peaceful nuclear power programs. And for 
many years, subsidized state-owned nuclear companies have been 
successfully competing against our companies for commercial 
opportunities.
    Throughout this Congress, we have examined two key 
challenges confronting the nuclear industry: how electricity 
markets function, as part of our ``Powering America'' series, 
and how to get our Nation's nuclear waste management back on 
track.
    Today's hearing is going to look at a wide array of other 
challenges facing the U.S. nuclear industry, and what is needed 
at DOE and NRC to maintain U.S. nuclear capabilities and 
leadership, and the security benefits that flow from that.
    Some of the examples:
    For instance, the U.S. lacks a vibrant domestic fuel cycle. 
Domestic uranium production has dropped to levels not seen 
since before nuclear reactors were commercialized. The sole 
domestic uranium conversion plant is on standby, and there is 
no U.S.-owned enrichment capacity.
    Last year brought news of Westinghouse, an historic leader 
certainly in the nuclear fuel cycle, filing for bankruptcy 
protection; the abandonment in South Carolina of one of just 
two nuclear power plants under construction; and more operating 
nuclear power plants announcing premature shutdowns.
    In my home district in Michigan, two nuclear sites provide 
hundreds of well-paying jobs, support local communities through 
tax revenue, and partner with charities throughout Southwest 
Michigan.
    And as we examine these issues, we should remember that 
nuclear technology is not just about generating electricity. It 
serves critical economic and national security functions, such 
as powering our space exploration missions, developing 
lifesaving medical treatments, protecting our Nation's borders, 
maintaining international nuclear safety and security 
leadership. These activities depend on the intellectual and 
technical capabilities provided by a robust nuclear 
infrastructure.
    So, this morning we are going to hear from two panels of 
witnesses, including three key DOE officials who lead nuclear 
offices, as well as the NRC's Executive Director of Operations. 
These witnesses will discuss the role of nuclear leadership.
    Our distinguished second panel will provide additional 
perspective. I would like to welcome back Bill Ostendorff to 
the committee. You will remember that Mr. Ostendorff testified 
before our panel on many occasions during his tenure as an NRC 
Commissioner. Now, he is a Distinguished Visiting Professor at 
the U.S. Naval Academy, teaching a class about Congress--maybe 
we need some lessons here on national security--to future naval 
officers.
    We are also going to hear from two national thought leaders 
on future nuclear technology development, including Dr. Mark 
Peters, the Director of the Idaho National Lab; and Dr. Ashley 
Finan, Nuclear Innovation Alliance's Policy Director. Drs. 
Peters and Finan will provide their perspective on existing 
innovative nuclear opportunities and the Federal Government's 
role in providing the necessary framework.
    I also welcome Maria Korsnick, the President and CEO of the 
Nuclear Energy Institute, NEI. This is her second appearance 
before the committee. And I appreciate her leadership during an 
uncertain time in the nuclear industry.
    So, thank you all for being here.
    [The statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Welcome to our second DOE modernization hearing, which will 
consider various issues that affect the economic and national 
security benefits associated with maintaining and advancing our 
Nation's nuclear infrastructure.
    In 1954, Congress amended the Atomic Energy Act to provide 
for the peaceful, civilian use of nuclear energy, both domestic 
and abroad. Congress gave the Atomic Energy Commission--the 
predecessor agency of DOE and the Nuclear Regulatory 
Commission--the responsibility to oversee this nascent nuclear 
industry. The nuclear industry in time achieved great success 
for the United States and contributed to global safety and 
security.
    Today, more than 60 years later, many Atomic Energy Act 
provisions remain unchanged. Yetthe world nuclear outlook has 
changed dramatically, and certain policies governing domestic 
involvement and participation in global markets no longer 
reflect reality.
    The United States is no longer the undisputed leader in 
civilian nuclear technology. 440 commercial nuclear power 
reactors operate in 31 countries, with additional countries 
pursuing peaceful nuclear power programs. And for many years, 
subsidized state-owned nuclear companies have been successfully 
competing against our companies for commercial opportunities.
    Throughout this Congress, we have examined two key 
challenges confronting the nuclear industry: how electricity 
markets function, as part of our ``Powering America'' series, 
and how to get our Nation's nuclear waste management back on 
track.
    Today's hearing will look at a wide array of other 
challenges facing the U.S. nuclear industry, and what is needed 
at DOE and NRC to maintain U.S. nuclear capabilities and 
leadership, and the security benefits that flow from that.
    Examples of challenges abound.
    For instance, the United States lacks a vibrant domestic 
fuel cycle. Domestic uranium production has dropped to levels 
not seen since before nuclear reactors were commercialized. The 
sole domestic uranium conversion plant is on standby and there 
is no U.S.-owned enrichment capacity.
    Last year brought news of Westinghouse, an historic leader 
in the nuclear fuel cycle, filing for bankruptcy protection; 
the abandonment in South Carolina of one of just two nuclear 
power plants under construction; and more operating nuclear 
power plants announcing premature shutdowns.
    In my home district in Michigan, two nuclear sites provide 
hundreds of well-paying jobs, support local communities through 
tax revenue, and partner with charities throughout Southwest 
Michigan.
    As we examine these issues, we should remember that nuclear 
technology is not just about generating electricity. It serves 
critical economic and national security functions, such as 
powering our space exploration missions, developing lifesaving 
medical treatments, protecting our Nation's borders, and 
maintaining international nuclear safety and security 
leadership. These activities depend on the intellectual and 
technical capabilities provided by a robust nuclear 
infrastructure.
    This morning, we will hear from two panels of witnesses, 
including three key DOE officials who lead nuclear offices, as 
well as the NRC's Executive Director of Operations. These 
witnesses will discuss the role of nuclear leadership.
    Our distinguished second panel will provide additional 
perspective. I would like to welcome back Bill Ostendorff to 
the committee. Mr. Ostendorff testified before our panel on 
many occasions during his tenure as an NRC Commissioner. Now, 
he is a Distinguished Visiting Professor at the U.S. Naval 
Academy, teaching a class about Congress and national security 
to future Naval officers.
    We will also hear from two national thought leaders on 
future nuclear technology development including Dr. Mark 
Peters, the Director of Idaho National Laboratory, and Dr. 
Ashley Finan, the Nuclear Innovation Alliance's Policy 
Director. Drs. Peters and Finan will provide their perspective 
on exciting innovative nuclear opportunities and the Federal 
Government's role in providing the necessary framework.
    I also welcome Maria Korsnick, the President and CEO of the 
Nuclear Energy Institute. This is Ms. Korsnick's second 
appearance before this committee and I appreciate her 
leadership during an uncertain time in the nuclear industry.
    Thank you all for being here today, and I yield back.

    Mr. Upton.
     With that, I yield to the ranking member of the 
subcommittee, my friend Mr. Rush, for an opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, for holding 
this important hearing today on advancing the economic and 
national security benefits of our Nation's nuclear 
infrastructure. Mr. Chairman, as I understand, there are 
several views regarding nuclear policy that the majority has 
noted in its memo. I look forward to working with the majority 
side as we proceed through regular order and bring these bills 
up in a legislative hearing in order to hear from expert 
witnesses on the constant questions and impacts of these bills.
    Mr. Chairman, I believe we may be able to come to a 
bipartisan agreement on most, if not all, of these bills in 
order to increase their chances of actually becoming law.
    Mr. Chairman, as I have stated many times, I principally 
subscribe to an all-of-the-above in the portfolio as we move 
towards a low-carbon energy economy. I have also stated on many 
occasions, Mr. Chairman, that I believe nuclear policy must 
play a vital role as a source of safe, reliable, low-carbon 
power, and help us meet both the energy and environmental needs 
of the 21st Century.
    While I did not agree with the recent Department of Energy 
notice of proposed rulemaking issued last year that was 
recently removed, revoked by FERC, I continue to maintain that 
we must find a way to appropriately appraise nuclear energy 
nationally. Mr. Chairman, I believe this must be done in a 
fair, methodical, and transparent manner by elected policy 
holders rather than those that are done hastily and in secret 
by unelected agency officials.
    Therefore, it is my hope that in addition to today's 
hearing, we will have other opportunities to hear from 
stakeholders on the benefits, on the impacts of more 
traditional nuclear facilities as well as more advanced nuclear 
technology, including nonlight water reactors and light water 
small modular reactor design.
    Mr. Chairman, these new and emerging technologies will 
allow for the production of nuclear power more efficiently and 
with less waste than in current technology. Mr. Chairman, I can 
imagine a scenario where these small, less costly reactors can 
be utilized to power hard-to-reach, remote populations, whether 
they be in small rural communities in the Midwest, or native 
villages in Alaska, or even to help the thousands of Americans 
still living without power in Puerto Rico or the U.S. Virgin 
Islands.
    To be sure, Mr. Chairman, there remains significant issues 
that must be addressed, including issues of safety, licensing, 
and commercialization of these advanced technologies. It is my 
intention, Mr. Chairman, that members of this subcommittee can 
indeed address many of these issues with bipartisan solutions 
that will benefit the Nation as a whole.
    So, Mr. Chairman, I look forward to engaging today's 
distinguished panelists on both challenges and as well as the 
opportunities that lie ahead in this very important nuclear 
century.
    Mr. Chairman, with that I yield back the balance of my 
time.
    Mr. Upton. The gentleman yields back. The Chair would 
recognize the chairman of the full committee, the gentleman 
from the good State of Oregon, for an opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the chairman. And I thank our panelists 
and all the witnesses for your testimony today and for helping 
us with these very, very important issues.
    This morning, as you know, we will examine several issues 
associated with the future of the Nation's nuclear power 
industry: the current domestic nuclear supply chain, 
international market opportunities, regulatory and policy 
matters, and what is necessary for developing and deploying 
future nuclear technologies.
    Now, the testimony and our discussion represent another 
step in our efforts to more appropriately align the Department 
of Energy's missions, management, and priorities with the 
challenges that face our Nation today.
    At root today, is a question of our Nation's capabilities, 
not only to propel nuclear innovation generally, but also to 
ensure an infrastructure that is critical to our economic and 
to our national security
    Today's civilian nuclear industry was born out of 
American's national security needs and imperatives from 70 
years ago. The first controlled nuclear reactions led to the 
Manhattan Project. That helped win World War II. The 1958 
launch of the world's first nuclear-powered submarine, the 
U.S.S. Nautilus, marked the birth of our nuclear navy and 
resulted in our subsequent naval dominance.
    President Eisenhower's Atoms for Peace provided for 
peaceful, civilian use of nuclear technology, and that remains 
the foundation of the nuclear industry that is in place today.
    Since that time, the civilian nuclear industry and its 
related infrastructure have been intertwined with our national 
security needs: projecting U.S. safety and security practices 
the world over, ensuring engineering and scientific 
understanding to safeguard nuclear materials, and developing 
the economic and commercial relationships that ensure a more 
secure world.
    To continue to harvest the economic and national security 
benefits associated with our domestic nuclear energy 
infrastructure, however, we must recognize the world looks 
different than it did at the birth of the nuclear age. 
Consequently, we must take steps to update the relevant 
policies. These policies must be forward looking to enable 
innovation and the deployment of new, advanced nuclear 
technologies.
    Oregon-based NuScale is an example of one of those 
innovative nuclear companies. NuScale's small modular reactor 
proposed design recently received approval for a significant 
milestone when the Nuclear Regulatory Commission signed off on 
the design's passive cooling system. This decision is a game 
changer for the regulatory framework. And I applaud both NRC 
and NuScale on their breakthrough.
    The Department of Energy's recent public-private 
partnership with NuScale helped enable these near-term 
successes. So, to unleash long-term innovation, DOE must 
capitalize and nurture its nuclear infrastructure, including 
research and test facilities, intellectual expertise, and 
institutional leadership. This foundation is critical to both 
economic and national security imperatives, but requires long-
term program stewardship, in addition to the underlying 
statutory authority and direction.
    Today's hearing continues the committee's ongoing review of 
the Department of Energy, but I should also note that it has 
been more than 30 years since the Nuclear Regulatory Commission 
was last reauthorized. Congressmen Kinzinger and Doyle's 
legislation to improve NRCC's efficiency--excuse me, NRC's 
efficiency--old habits die hard--and budget process is a good 
start. And I appreciate their interest and their leadership on 
this issue.
    This morning's diverse witness panels will help inform our 
efforts to reinvigorate our Nation's critical nuclear 
infrastructure. And I look forward to your testimony.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    This morning we will examine several issues associated with 
the future of our Nation's nuclear industry--the current 
domestic nuclear supply chain, international market 
opportunities, regulatory and policy matters, and what is 
necessary for developing and deploying future nuclear 
technologies.
    The testimony and our discussion represent another step in 
our efforts to more appropriately align the Department of 
Energy's missions, management, and priorities with the 
challenges facing our Nation today.
    At root today is a question of our Nation's capabilities 
not only to propel nuclear innovation generally, but to ensure 
an infrastructure that is critical to our economic and our 
national security.
    Today's civilian nuclear industry was borne out of 
America's national security imperatives from over 70 years ago. 
The first controlled nuclear reactions led to the Manhattan 
Project, which helped win World War II. The 1958 launch of the 
world's first nuclear-powered submarine, the U.S.S. Nautilus, 
marked the birth of our nuclear navy and resulted in our 
subsequent naval dominance.
    President Eisenhower's Atoms for Peace provided for 
peaceful, civilian use of nuclear technology, which remains the 
foundation of the nuclear industry in place today.
    Since that time, the civilian nuclear industry and its 
related infrastructure have been intertwined with our national 
security needs-projecting U.S. safety and security practices 
the world over, ensuring engineering and scientific 
understanding to safeguard nuclear materials, and developing 
the economic and commercial relationships that ensure a more 
secure world.
    To continue to harvest the economic and national security 
benefits associated with our domestic nuclear energy 
infrastructure, however, we must recognize the world looks 
different than it did at the birth of the nuclear age. 
Consequently, we must take steps to update the relevant 
policies. These policies must be forward looking to enable 
innovation and the development and deployment of new advanced 
nuclear technologies.
    Oregon-based Nuscale is an example of one of those 
innovative nuclear companies. Nuscale's small modular reactor 
proposed design recently received approval for a significant 
milestone when the Nuclear Regulatory Commission signed off on 
the design's passive cooling system. This decision is a 
gamechanger for the regulatory framework and I applaud both NRC 
and NuScale on this breakthrough.
    The Department of Energy's recent public-private 
partnership with NuScale helped enable these near-term 
successes. To unleash long-term innovation, DOE must capitalize 
and nurture its nuclear infrastructure, including research and 
test facilities, intellectual expertise, and institutional 
leadership. This foundation is critical to both economic and 
national security imperatives, but requires long-term program 
stewardship, in addition to the underlying statutory authority 
and direction.
    Today's hearing continues the committee's ongoing review of 
DOE, but I should also note that it has been over 30 years 
since the Nuclear Regulatory Commission was last reauthorized. 
Congressmen Kinzinger and Doyle's legislation to improve NRC's 
efficiency and budgetary process is a good start and I 
appreciate their interest and leadership on this issue.
    This morning's diverse witness panels will help inform our 
efforts to reinvigorate our Nation's critical nuclear 
infrastructure and I look forward to the testimony.

    Mr. Upton. Time is yielded back.
    The Chair would recognize the ranking member of the full 
committee, the gentleman from New Jersey, Mr. Pallone, for an 
opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. Today's hearing is 
the second in the subcommittee's Department of Energy 
modernization series. It is an important step in our bipartisan 
efforts to advance the economic and national security benefits 
of America's nuclear infrastructure.
    First, I must mention that while the majority's memo lists 
three bills for consideration today, we have been assured by 
the majority that this is not a legislative hearing on these 
bills. Without commenting on the merits of the legislation, I 
want to make clear that it's essential for this subcommittee to 
hold a legislative hearing prior to moving these bills. It's 
critical that Members have the opportunity to engage with 
appropriate witnesses who can properly analyze the impact of 
the proposals.
    At the subcommittee's first DOE modernization hearing I 
noted the department can improve and more successfully fulfill 
its mission. Today's hearing is the logical next step, because 
I believe that DOE's Office of Environmental Management and the 
National Nuclear Security Administration are two of the key 
entities within DOE that are in greater need of oversight.
    For example, the environmental management program in recent 
years has been plagued by high-profile leaks of radioactive 
waste, contractor problems, missed deadlines, and escalating 
cleanup costs. In 2014, an Augustine-Mies Panel report 
concluded that NNSA lacks a stable, executable plan for 
modernization. The report also found that NNSA faces challenges 
in its governance of the nuclear security enterprise. And I 
believe this is an area where we can work in a bipartisan 
fashion to address these issues.
    We must also ensure that taxpayer dollars are being managed 
in a fiscally responsible manner. For example, according to the 
GAO 2017 high-risk designation, DOE's Office of Environmental 
Management has spent $35 billion in the last 6 years alone, 
primarily on treating and disposing of nuclear and hazardous 
waste. Yet, environmental liability grew over the same period 
by over $90 billion. So it is particularly important that DOE 
address environmental liabilities in a cost effective way, 
while also ensuring public health and safety.
    These concerns lead me to question whether DOE's nuclear 
activities need some sort of formal external regulation and 
independent oversight, whether by the Nuclear Regulatory 
Commission or another entity. DOE's track record for regulating 
itself over the past 40 years is mixed at best. External 
regulation may be a way to improve that record. And this is an 
idea that the Subcommittee on Energy had explored on a 
bipartisan basis in the past. It may be time to do so again.
    Today's hearing also affords us the opportunity to 
contemplate what American nuclear infrastructure might look 
like in the coming decades. It is no secret that building new 
nuclear power plants has been a challenge. The Vogtle Project 
in Georgia has experienced skyrocketing costs and prolonged 
construction delays, while the V.C. Summer Nuclear Power Plant 
in South Carolina has been abandoned entirely, all the while 
more and more existing plants are announcing plans to 
permanently shut down. These include in New Jersey the Oyster 
Creek Nuclear Generating Station just south of my congressional 
district, which last week announced it will close in October of 
this year, 1 year earlier than planned.
    If our country is going to meet its carbon reduction goals, 
then nuclear energy may still be needed as a part of the 
solution for awhile. And after all, despite the President's 
efforts, we are fortunately still a party to the Paris Climate 
Accord. So, while I do not think the Federal Government should 
be subsidizing nuclear plants in the competitive markets, it is 
important that we invest in research into advanced nuclear 
reactors that can potentially generate power more efficiently, 
with less waste than our current reactor fleet.
    So I look forward to hearing from our two knowledgeable 
panels about DOE's nuclear mission and where we should focus 
efforts to improve these programs.
    Thank you, Mr. Chairman. I yield back.
    Mr. Upton. The gentleman's time has expired, and he yields 
back. So, at this point, we will listen to our testimony by our 
four distinguished witnesses.
    I would note that your testimony in full is made a part of 
the record, so we would like to limit your remarks in summary 
to no more than 5 minutes.
    Mr. McGinnis, Principal Deputy Assistant Secretary for the 
Office of Nuclear Energy, we will start with you. Welcome. 
Thank you.

 STATEMENTS OF EDWARD G. MCGINNIS, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY FOR NUCLEAR ENERGY, DEPARTMENT OF ENERGY; ART ATKINS, 
 ASSOCIATE DEPUTY ADMINISTRATOR FOR GLOBAL MATERIAL SECURITY, 
 OFFICE OF DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR 
SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY; JAMES OWENDOFF, 
    PRINCIPAL DEPUTY ASSISTANT SECRETARY FOR ENVIRONMENTAL 
    MANAGEMENT, DEPARTMENT OF ENERGY; AND VICTOR M. MCCREE, 
     EXECUTIVE DIRECTOR FOR OPERATIONS, NUCLEAR REGULATORY 
                           COMMISSION

                STATEMENT OF EDWARD G. MCGINNIS

    Mr. McGinnis. Thank you very much, Chairman Upton. I would 
also like to thank Ranking Minority Member Rush, and also the 
other members of this subcommittee. It is a great privilege to 
be here today.
    Let me just start out by saying the United States pioneered 
the development and peaceful use of nuclear power to produce 
around-the-clock, emissions-free electricity. As a result of 
U.S. leadership in nuclear energy, American citizens have 
benefitted from the truly unique source of electricity for the 
last seven decades. Nuclear power plants have served as 
bedrocks to communities across the country to thousands, 
providing high-paying, skilled jobs to hundreds of thousands of 
Americans. And our nuclear energy capabilities have supported 
our Nation's energy security, grid reliability, and national 
security.
    However, the U.S. nuclear energy sector is now under 
historic downward pressure, has lost a tremendous amount of its 
once dominant global market share, and has seen a significant 
degradation in our manufacturing base. In response, the 
President, on June 29th of last year, announced that we would 
conduct a complete review of the U.S. nuclear energy policy to 
help find new ways to revive and expand this crucial energy 
resource.
    The Department of Energy is now working to implement the 
President's direction, vigorously I might add. Within the 
department's office of Nuclear Energy, we focus our work in 
three mission areas: the Nation's existing fleet, the 
development of advanced nuclear reactor concepts, and also fuel 
cycle technologies.
    The department is partnering with industry to develop the 
technical basis for the continued safe and economic operation 
of the current fleet of nuclear power plants, as well as 
developing technical solutions to enhance the economics, 
performance, and safety of nuclear power plants. This includes 
supporting the development of technologies such as accident 
tolerant fuels, which have the potential to significantly 
increase the performance of our Nation's current fleet of 
reactors, while also reducing costs.
    By continuing to support improvements to the efficiency, 
productivity, and operating lifetimes of our Nation's nuclear 
fleet through technology R&D, the department is helping 
industry realize its full potential in contributing to our 
Nation's emissions-free, reliable electricity supply.
    The department is also working to advance our Nation's next 
generation of advanced reactors, including potentially game-
changing advanced Small Modular Reactors. Advanced reactor 
concepts have the potential to deliver improved performance and 
efficiency, reduced costs, enhanced resource utilization and 
waste minimization, as well as enhanced flexibility to include 
nonelectric applications, and even load following.
    The department recently announced a $30 million funding 
opportunity in fiscal year 2018 to support early stage research 
and development of advanced nuclear energy technology. By 
focusing on the development of innovative advanced reactors, 
and leveraging private-public partnerships in a world class 
national laboratory system, we can support strong domestic 
industry now and into the future.
    The department is also working to support the civilian 
nuclear fuel cycle. We recently took an important step toward 
revitalizing our fuel cycle R&D capabilities when Idaho 
National Laboratory resumed operations at the Transient Reactor 
Test Facility, otherwise known as TREAT, which had been shut 
down since 1994. This capability is an important asset to 
nuclear scientists and engineers as they work to increase the 
safe and performance--safety and performance of current and 
future nuclear reactors.
    The department is also conducting research and development 
activities that would be necessary for the development of a 
versatile, fast test reactor. Development of that would be very 
important potentially. While a decision whether or not to 
deploy an advanced fast spectrum test reactor has not been 
made, such a reactor would accelerate innovation in advanced 
fuels and materials for U.S. vendors, and pave the path to U.S. 
global leadership in advanced nuclear R&D by reestablishing 
this capability.
    Finally, in conclusion, the administration is fully 
committed to nuclear energy as a vital component of our 
Nation's energy system. By leveraging private-public 
partnerships and our national laboratory system, we can support 
the development of a new class of U.S. advanced reactors; an 
innovative, responsive nuclear energy supply chain; and 
advanced nuclear energy fuel cycle technologies, positioning 
the U.S. for dominance in the 21st Century.
    Thank you very much.
    [The statement of Mr. McGinnis follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Upton. Thank you.
    Mr. Atkins is Associate Deputy Administrator for Global 
Material Security at the National Nuclear Security 
Administration. Welcome to you.

                    STATEMENT OF ART ATKINS

    Mr. Atkins. Thank you. Chairman Upton, Chairman Walden, 
Ranking Member Rush, and members of the committee, thank you 
for the opportunity to represent the Department of Energy's 
National Nuclear Security Administration and discuss its 
important role in national security. We truly appreciate your 
interest in NNSA's critical missions and your continued support 
of its projects and its people.
    NNSA is charged with three important and enduring national 
security missions:
    First, maintaining the safety, security, reliability, and 
effectiveness of the nuclear weapons stockpile;
    Second, preventing, countering, and responding to global 
nuclear threats, and;
    Third, providing naval nuclear propulsion to the U.S. 
Navy's fleet of aircraft carriers and submarines.
    At the same time, NNSA recognizes the important role played 
by civil nuclear energy, both in the United States and abroad, 
and the connectivity that exists with our national security 
missions.
    For instance, the science and engineering performed by our 
labs, plants, and sites underpins our critical defense in 
nonproliferation missions, and the advances in these 
interdisciplinary efforts yield concrete benefits to the civil 
nuclear industry, and vice versa.
    While the burgeoning international market provides a 
significant commercial opportunity for the U.S. nuclear 
industry, the export of U.S. nuclear technology still poses 
significant nuclear nonproliferation concerns. Therefore, it 
must be carefully managed.
    NNSA is committed to striking the appropriate balance 
between facilitating legitimate commerce, while also 
controlling proliferation of weapons-usable material, 
equipment, technology, and expertise. In implementing NNSA's 
mission, we ensure that not only is the United States abiding 
by the highest nonproliferation standards in nuclear exports, 
but that those standards are also matched by our global 
partners and global suppliers.
    There are two primary mechanisms we implement to achieve 
these standards. The first, 123 Agreements. These establish the 
legal framework for U.S. companies to export nuclear reactors, 
nuclear fuel, and equipment to foreign companies and 
governments.
    NNSA plays an important role in the conclusion of 123 
Agreements. We provide, on behalf of DOE, technical assistance 
to the State Department, which leads negotiations on new 123 
Agreements.
    Additionally, the Secretary of Energy has the legal 
authority to authorize proposed exports of unclassified U.S. 
nuclear technology and assistance. This authority is 
implemented under 10 C.F.R. Part 810 regulation, which NNSA is 
responsible for administering.
    In response to feedback from U.S. industry and other 
stakeholders, we have taken a number of steps to simplify and 
update the Part 810 regulation, and have implemented 
significant improvements in the process for reviewing export 
applications. These efforts have already reduced average 
processing time from more than 18 months to approximately 12 
months. And our goal is to reduce this review time even 
further.
    However, some challenges remain outside of NNSA's control. 
For instance, the lengthiest part of the Part 810 review 
process is the effort to obtain the required government-to-
government nonproliferation assurance. This is handled by the 
State Department. This process can often take 6 months or 
longer.
    The U.S. Government works closely with partner countries to 
obtain these assurance, but industry also has a pivotal role to 
play. We encourage U.S. exporters to discuss the importance of 
these assurances with their customers who, in turn, can 
highlight the issue with their government counterparts.
    Equally as important, NNSA also bears responsibility for 
managing our Nation's stockpile of uranium, most of which was 
produced during the Cold War. The department requires a 
reliable supply of enriched uranium to accomplish important 
defense and nondefense needs. In order to meet the requirements 
for enriched uranium, the department currently relies on 
downwinding campaigns. The department downwinds excess highly 
enriched uranium, including material that is surplus for 
defense needs, to create low-enriched uranium suitable for 
power reactors, research reactors, and medical isotope 
production.
    Longer term, NNSA's Defense Programs is working to 
reestablish a domestic uranium enrichment capability to ensure 
the supply of low-enriched uranium fuel for tritium production, 
a need that cannot be met by commercial industry. We are 
exploring unified strategies in which a domestic uranium 
enrichment capability could also meet departmental and 
commercial needs for high-assay LEU and HEU for naval 
propulsion.
    To conclude, NNSA recognizes that the effective 
implementation of our mission is strengthened by strong 
partnerhips with industry. NNSA needs these strong industry 
partners to resolve the critical national security issues that 
we face.
    Again I want to thank you for your support for our programs 
and your time. And I look forward to answering any questions 
that you may have.
    [The statement of Mr. Atkins follows:]
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you.
    Next we have James Owendoff, Principal Deputy Assistant 
Secretary at the Office of Environmental Management, Department 
of Energy. Welcome again.

                  STATEMENT OF JAMES OWENDOFF

    Mr. Owendoff. Chairman Upton, Chairman Walden, Ranking 
Member Rush, and distinguished members of this subcommittee, I 
appreciate the opportunity to appear before you today to 
discuss the Department of Energy's Environmental Management 
Program.
    The Federal Government's nuclear weapons production 
programs have made significant contributions to our Nation's 
defense for decades, helping end World War II and the Cold War. 
In addition, Government-sponsored nuclear energy research also 
made significant contributions to domestic energy growth and 
prosperity. The legacy of these programs is a massive amount of 
radioactive and chemical waste and contaminated facilities at 
sites across the country. It is the mission of DOE's Office of 
Environmental Management to clean up or remediate legacy waste 
and facilities.
    This legacy includes 90 million gallons of radioactive 
liquid waste stored in aging underground tanks.
    This legacy also includes 5,000 contaminated facilities, 
700,000 tons of depleted uranium, millions of cubic meters of 
contaminated soil, billions of gallons of contaminated water, 
spent nuclear fuel, and other nuclear materials.
    EM must execute its mission as safely, efficiently, and 
cost-effectively as possible. This involves constructing new 
infrastructure, like waste storage facilities and waste 
treatment plants. This mission also involves the management and 
retrieval of liquid waste, as well as the decommissioning and 
demolition of deteriorating facilities that ultimately reduce 
maintenance and monitoring costs.
    EM's first priority is worker safety, as well as protection 
of the public health and the environment. These are essential 
components of our cleanup objectives. EM will continue to 
discharge its responsibilities by conducting cleanup within a 
``Safe Performance of Work.'' This culture integrates 
protection of the environmental, safety, and protection of 
worker and public health into all work activities.
    Taking many variables into account, such as risk reduction 
and compliance agreements, EM has the following priorities: 
radioactive tank waste stabilization, treatment, and disposal; 
spent nuclear fuel receipt, storage, and disposition; special 
nuclear material consolidation, stabilization, and disposition; 
transuranic and mixed/low-level waste treatment and disposal; 
soil and groundwater remediation; and excess facilities 
deactivation and decommissioning.
    Across these programmatic areas it is important to note 
that approximately half goes to maintaining our facilities 
across the complex in a safe, operational-ready stance. This 
includes activities such as facility infrastructure maintenance 
and complex-wide safeguards and security, and cybersecurity 
activities. The scope of these activities covers security of 
special nuclear materials and safety of high-level radioactive 
waste and spent fuel, along with the maintenance of thousands 
of square feet of deteriorating nuclear processing facilities 
awaiting eventual future demolition.
    The nature and length of the EM mission, coupled with the 
sheer technological complexity of cleanup means that we always 
face challenges--some anticipated, others unexpected. These 
obstacles certainly warrant our careful attention, but EM also 
has proven its ability to meet tangible results.
    When we began the program in 1989, EM was responsible for a 
total of 107 sites, covering 3,100 square miles, that area, 
larger than Rhode Island and Delaware combined. During early 
years we focused on characterizing waste. Since then, EM has 
accomplished cleanup and closure of major sites in Colorado, 
Ohio, Missouri, and Florida; decommissioning of a gaseous 
diffusion plant in Tennessee; vitrification of more than 4,000 
canisters of high-level waste in South Carolina; and removal of 
all the plutonium metal and oxides from Washington State.
    That is, ensuring there is an essential safe work 
environment at all of our sites is our highest priority. As we 
work to best position EM for success now and into the future, 
we also continue to pursue robust technology development, and 
infrastructure investments that ensure safe and uninterrupted 
operations.
    EM's progress means safe, cleaner sites in the communities 
that hosted defense nuclear activities for decades. This kind 
of progress is not possible without our workforce, Members of 
Congress, regulators, community leaders, and other partners.
    Mr. Chairman, I welcome the input of the committee as EM 
continues work on aggressive, achievable cleanup plans that 
recognize these difficult technical challenges, while making 
substantial progress on the many goals we share with you and 
your constituents.
    Thank you for this opportunity.
    [The statement of Mr. Owendoff follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Mr. Upton. Thank you.
    Last on this panel we are joined by Mr. McCree, Executive 
Director of Operations from the NRC. Welcome to you, sir.

                 STATEMENT OF VICTOR M. MCCREE

    Mr. McCree. Thank you. Good morning, Chairman Upton, 
Ranking Member Rush, and distinguished members of the 
subcommittee. I appear before you today representing the staff 
of the Nuclear Regulatory Commission. I am pleased to have this 
opportunity to meet with you to discuss the steps that we have 
taken to ensure the NRC's readiness to fulfill our mission in 
light of advancements in nuclear technologies being 
contemplated by the nuclear industry. The NRC is actively 
working with stakeholders, including the Department of Energy, 
to establish shared expectations and develop strategies to 
prepare for future reviews.
    We are also enhancing our processes to execute our safety 
and security mission in a manner that reflects our Principles 
of Good Regulation. Today I will briefly highlight several of 
our efforts.
    Regarding new reactors, in March of last year the NRC 
docketed the first application for a small modular reactor 
design certification submitted by NuScale Power. And the 
overall regulatory review of the design is progressing on the 
established schedule.
    In May of 2016, the NRC received an application from the 
Tennessee Valley Authority, or TVA, for an early site permit at 
the Clinch River Nuclear Site in Tennessee to evaluate the 
suitability for a potential new small modular reactor. This 
review is also, this review is also progressing on schedule.
    With respect to future advanced reactor designs, the NRC 
staff has developed a multi-part strategy to prepare for the 
review of nonlight water reactor technologies. This strategy 
has three objectives: enhancing technical readiness; optimizing 
regulatory readiness; and enhancing communication. We have made 
significant progress in fulfilling these objectives.
    Five developers of nonlight water reactor designs have 
expressed their intent to begin regulatory interactions with 
the NRC. And we have already begun formal pre-application 
interactions with Oklo, Incorporated, on its compact fast 
reactor design. We anticipate starting additional pre-
application reviews this year and next fiscal year, in 2019, 
and beginning one or more advanced reactor application reviews 
in the next 2 to 4 years.
    Regarding our effectiveness and efficiency initiatives, in 
June 2014, the NRC began an initiative, referred to as Project 
Aim, to enhance the agency's ability to plan and executive its 
mission in a more effective and efficient manner. Although we 
have achieved a significant milestone last year by completing 
the major deliverables for each of the 19 discrete tasks, and 
realizing approximately $48 million in reductions, we are 
committed to continuing actions to improve our effectiveness, 
efficiency, and agility.
    In fact, this month the NRC staff started an initiative to 
further transform our regulatory approach to better handle 
potential new and novel technology, such as accident tolerant 
fuel and advanced nonlight water reactors.
    In the area of human resources, the NRC developed a 
Strategic Workforce Plan that is focused on having the right 
people with the right skills and competencies at the right time 
and place to achieve the agency's safety and security mission. 
We are continuing to refine this plan to ensure the NRC's 
workforce planning efforts are timely and responsive to changes 
in workload, while the agency retains and develops the skills 
needed to support our mission.
    As for fees, the NRC understands the importance of a 
predictable, transparent, clear, and understandable fee 
structure. To this end, the NRC is overhauling its fee billing 
process to offer greater transparency, using several methods, 
including testing the use of flat fees; revising how billable 
work is tracked and reported; and starting next month, 
identifying each unique activity charge and the name of the 
person who performed the work on the invoices.
    With respect to other domestic and international 
activities, in cooperation with DOE, the nuclear industry is 
researching advanced fuel designs that are expected to exhibit 
improved safety margins under both normal and postulated 
accident conditions, when compared to fuel types that are used 
today. Several vendors are exploring candidate designs, which 
are collectively referred to as accident tolerant fuel, or ATF 
as you heard earlier.
    In response, the NRC will soon finalize a comprehensive 
plan to ensure that we are prepared to effectively and 
efficiently review ATF designs. Our regulatory interaction with 
the DOE in preparing our project plan has allowed us to explore 
opportunities to leverage experimental and computational work 
already conducted by the department.
    As for our international activities, the NRC serves as the 
licensing authority for proposed exports and imports of pf 
commercial nuclear equipment and materials, and is committed to 
maintaining robust partnerships with our regulatory 
counterparts worldwide. These interactions allow the NRC to 
share best practices, shape the content and scope of technical 
publications, participate in peer reviews, and access research 
facilities not available in the U.S.
    In closing, the NRC continues to focus on fulfilling our 
safety and security mission in a more transparent, effective, 
and efficient manner. Chairman Upton, Ranking Member Rush, and 
distinguished members of the subcommittee, I thank you for the 
opportunity to appear before you today, and would be happy to 
respond to your questions. Thank you.
    [The statement of Mr. McCree follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    Mr. Upton. Thank you all for your testimony. And I know you 
made a very strong case for maintaining the U.S. leadership 
position, not only here--obviously--in the United States, but 
also worldwide in so many different ways.
    I have to say that many of us, just about all of us here 
support an all-of-the-above energy strategy, and that includes 
safe nuclear power, something that we indeed care about. And 
for a host of reasons we have seen a number of major nuclear 
gener--electric generators frozen or beginning now to decline 
as that number is reduced, as a number of different facilities 
have announced that they are going to be shutting down.
    But you also make the point, as the second panel, that our 
leadership is needed, particularly on defense. I was, I was 
fortunate to be at the dedication, the christening of the 
U.S.S. Ford, the new class of aircraft carriers this last year, 
a nuclear-powered aircraft carrier. Know lots of folks who 
serve on our nuclear-powered submarines with the obvious 
reasons why they are efficient. So the need for trained 
personnel in the nuclear engineering field is enormous here in 
the U.S., but worldwide.
    And as the number of major facilities, electric generating 
facilities are frozen or beginning to decline, I think many of 
us are looking at the prospects of smaller generators, smaller 
units to be approved. This has been in the mix for some time, a 
number of years. And I would guess that probably, Mr. McGinnis 
and Mr. McCree, you are probably the--where exactly are we in 
terms of seeing some of those promising designs be approved? 
And what is your guess as to the timeline, if it is approved, 
that we would actually begin to see these smaller generating 
units actually be brought into the commercial sector to serve 
the Nation? Mr. McGinnis?
    Mr. McGinnis. Thank you for the question, Mr. Chairman. And 
I certainly defer to my colleague Mr. McCree to add.
    But right now I agree, we are in an extremely challenging 
moment in time. Many in the industry and in my office's view 
actually see our Nation at an inflection point with regards to 
the, to the future of our nuclear fleet. In fact, I would say 
we are at a tipping point.
    Our ability to bring in new reactors in the pipeline is 
key. We have an historic number of premature shutdowns of 
plants that many would not have ever predicted 4 or 5 years 
ago, fully amortized assets, multibillion-dollar low operating 
and management costs, yet we are seeing that today in some of 
the districts of Members here today.
    So it is a great challenge. We have a pipeline that once 
had about 27 units back in 2007 092008, working its way through 
the NRC. We have a grand total of one construction and 
operation license going through with Florida Power and Light. 
And we have one advanced SMR design. That advanced SMR design, 
as we mentioned, is NuScale. I think it is potentially 
significantly game changing. There are a number of other U.S. 
small modular and other advanced designs.
    Frankly, I would say the United States is still 
unequivocally the leader in the design development of advanced 
reactors, bar none. We are challenged in the deployment, that 
is for sure. But with regards to the advanced reactors, we are 
leading. And it is an exciting time to figure it out.
    The NuScale design reflecting the strong support and 
investment, frankly, from Congress. Almost $200 million we have 
invested in technically partnering with NuScale. It has the 
promise of being the first advanced SMR reactor entering the 
fleet in our country. 2026 is the timeline for Idaho National 
Lab. And UAMPS is the municipal utility looking at it.
    And great compliments to the NRC, they are in fact, as the 
chairman mentioned, really conducting an historic review of our 
Nation's first advanced reactor.
    A couple of things that this NuScale reactor brings in my 
view is game changing: one is financeability. As opposed to an 
$8 billion unit for a gigawatt larger before financing, you are 
looking at a unit that may cost only about a billion to a 
billion-and-a-half to put that base plant, with 350 to 450 
million per unit adding to it, allowing the utility to take 
bites at a time.
    Mr. Upton. I know my time has expired. But, Mr. McCree, do 
you just want to comment, do you verify what Mr. McGinnis has 
said in terms of the timeline that we may be on?
    Mr. McCree. Yes, Chairman. Thank you for the question.
    With regard to the timeline, as I alluded to in my 
testimony, we docketed the NuScale application in March of last 
year and informed them of a 42-month review schedule, which if 
continued to move at the pace that they are moving, would 
support a final safety evaluation for design certification in 
September of 2020.
    The review is proceeding on schedule. We are 70 percent 
through the Phase 1 of a 6-phase review. And we are working 
very closely with the applicant NuScale to address the issues 
that have been revealed thus far.
    Mr. Upton. Thank you.
    Mr. Rush.
    Mr. Rush. I certainly want to thank you, Mr. Chairman.
    Mr. Atkins, in the April 2017 report from the GAO, the GAO 
concluded that the estimates provided by the NNSA of the 
funding necessary to carry out the NRC's modernization agenda 
sometimes, sometimes exceeded the President's budget proposal 
by millions of dollars. GAO also found that the cost of some 
major modernization programs, including nuclear weapon 
refurbishment, could also be severely underestimated.
    One recommendation that the GAO made was for the NNSA to 
include a cost-benefit analysis of its modernization program in 
future versions of its annual plan on stockpile stewardship.
    What position does the NNSA take on both the problems 
identified by GAO and the recommended solutions? Are you 
confident that the agency can respectfully perform its duties 
with its current level of funding?
    Mr. Atkins. Thank you for your question, sir.
    The department and the NNSA recognizes that it is of vital 
importance to recapitalize and modernize our aging 
infrastructure. This is something that NNSA is very committed 
to. And it is true, over time the resources have not kept pace 
with the need for modernization that we have seen to ensure the 
facilities that are necessary to maintain, a safe, reliable, 
and effective stockpile are maintained.
    We have increased our budget request since 2015 to work on 
the backlog of deferred maintenance. And in '16 and '17 we were 
able to actually stop the increase in deferred maintenance. So 
it is something that we continue to work on and we will 
continue to endeavor to improve.
    As far as the GAO's recommendation, we take all of the 
recommendations that the GAO has provided very seriously. And 
there is a commitment to incorporate a cost-benefit into that, 
into that, sir.
    Mr. Rush. Mr. Owendoff, they say the 2017 GAO study also 
found that DOE has charges in addressing its environmental 
oversight and the amount of funding needed to invest all of its 
cleanup responsibility. Specifically GAO noted that the cost 
estimate for DOE's proposal for separate defense and commercial 
nuclear waste repositories excluded the cost and timeframe for 
site selection and site characterization. This omission could 
cost the agency millions more than the DOE-reported 
environmental liabilities.
    Has DOE implemented any of the 28 recommendations that GAO 
proposed in order to reduce the long-term costs, as well as the 
environmental risks more quickly?
    Secondly, what is the timeline for enacting all of these 
recommendations so that the taxpayers' dollars are being 
utilized more efficiently?
    Mr. Owendoff. Thank you for the question, Mr. Rush. 
Certainly, as I mentioned, over half of our budget goes towards 
maintaining a safe condition with the radioactive material, 
special nuclear materials at our facilities. So with the 
balance of the funds we utilize those in the highest risk 
areas. As I mentioned, that principally is radioactive liquid 
waste and spent fuel, to put in place facilities that can, in 
the case of tank waste, bring that into glass, vitrified in 
glass. We think we have been very successful in that program.
    Certainly there are going to be first of a kind, one of a 
kind challenges that we have that are not faced, certainly, in 
the commercial industry or that we have to build. One of those 
is a waste treatment plant at Hanford. That has been a 
challenge for us. But I think on the flip side, if you look at 
our closure and cleanup of Rocky Flats, we did that within the 
money that we estimated. You can go to Rocky Flats now and it's 
preserved that you can walk across.
    This is a challenging business, sir. And we take it 
seriously. And we are working each and every day at how we can 
be more cost effective.
    Mr. Rush. I yield back, Mr. Chairman.
    Mr. Upton. The gentleman's time has expired. The Chair 
recognizes the chairman of the full committee Mr. Walden.
    Mr. Walden. I thank the gentleman. And, again, thank you 
all for your assistance in our efforts on these issues.
    Mr. McCree, as I mentioned in my opening statement, and as 
we have discussed a bit before the committee, the NRC's 
recently determining that NuScale's design for a small modular 
reactor would not need what is known as a Class 1E power 
requirements for offsite electricity. This class of power is a 
regulatory standard set for design of safety-related nuclear 
power plant electricity systems.
    What's the impact of this determination with respect to 
potential changes for regulatory and licensing requirements?
    Mr. McCree. Thank you, Congressman, for the question.
    What this reflects is our focus on design functionality, 
the functionality of the design that will be later demonstrated 
and validated by the applicant and/or the COL, as opposed to 
greater design detail. It's a philosophical but substantive 
change that I believe will contribute to more efficient but 
just as effective reviews in this important area.
    Mr. Walden. So if this goes all the way through the process 
and is approved, what will this actually mean for the power 
sector?
    Mr. McCree. Well, I would defer to my colleague from the 
DOE. Our focus, of course, as the independent safety 
regulators----
    Mr. Walden. Right.
    Mr. McCree [continuing]. Our role is to assure that this 
application is safe and that it can be certified and later 
built if there was a utility that wants to do that. But, again, 
I would defer to my colleague from the DOE.
    Mr. Walden. Would you like to respond to that?
    Mr. McGinnis. Thank you very much. Yes, I would.
    It would mean a tremendous amount. We don't use the word 
``game changer'' lightly. The wall that has faced utilities in 
the form of financing, up front capital, cannot be overstated. 
Notwithstanding the other game changing aspects of small 
modular reactors such as NuScale, we are talking about highly 
flexible, 12 different 15 megawatt electric units, all of which 
is designed to be operated at different levels.
    So you are offering great opportunity, flexibility for a 
utility to have it serve as load following, to have it serve, 
pair it up with other hybrid sources of generation. And also 
from a financing perspective, as I said, not having to put $8 
billion up front and not have any generation from that for 
many, many years, they are only putting down a small subset.
    I think what the implication is is potentially dramatically 
opening up the market, a market that would never really be 
materialized with large reactors, as valuable as large reactors 
still are. We just simply have utilities that don't have the 
financial wherewithal and also are very, I would say very 
excited about the design attributes.
    Mr. Walden. And when you talk about this, can you give me a 
perspective that relates to integrating renewables onto the 
grid using this type of nuclear power? Does that give you more 
flexibility because of the modular nature?
    Mr. McGinnis. Indeed. The flexibility is exactly why we are 
now looking and doing R&D on hybrid generation where we are 
looking at--in fact you will hear from Dr. Peters I would think 
with regards to Idaho. That is where we are doing cutting edge 
work. We are literally looking at pairing an advanced small 
modular reactor with the wind turbine, with the solar plant. 
The benefits of both are, can be very significant.
    Mr. Walden. And can they ramp up and ramp down----
    Mr. McGinnis. Yes.
    Mr. Walden [continuing]. Like, say, a gas turbine plant 
does?
    Mr. McGinnis. Right.
    Mr. Walden. You would be able to do that with nuclear?
    Mr. McGinnis. Indeed. Not only do you have, one reason why 
is you have 12 different units. And the intent, the design of 
course is going through the NRC now for validation----
    Mr. Walden. Right.
    Mr. McGinnis [continuing]. From a safety perspective, but 
the intent is to offer the operator significant versatility in 
having different load following or power generation throughout 
the day. And so that can be--that is a power combination with 
intermittence and bringing in the emissions-free baseload 
generation. It is quite exciting in my view.
    Mr. Walden. Which is what this would be, emissions-free----
    Mr. McGinnis. Yes.
    Mr. Walden [continuing]. Nuclear?
    Mr. McGinnis. Indeed. Absolutely.
    Mr. Walden. I will restrain myself. But this committee has 
voted 49 to 4 to also resolve the long-term nuclear waste 
storage issue. And the extent to which those who seek to move 
forward with additional nuclear power can assist our committee 
in its efforts to get this to the President's desk, we would be 
most appreciative.
    With that, I would yield back, Mr. Chairman.
    Mr. Upton. The gentleman yields back.
    The Chair would note that votes on the House floor are 
taking place. The second bells have rung. We have got at least 
three votes here that are queued up. So, we are going to go 
vote. It probably will be at least a half hour, and we will 
resume with questioning on the Democratic side.
    With that, we stand in recess.
    [Recess.]
    Mr. Upton. We will resume. Sorry for the delay, but we had 
a number of votes on the floor. And we will resume with Mr. 
McNerney from California for 5 minutes. The gentleman is 
recognized.
    Mr. McNerney. I thank the Chair. I rushed over here with my 
friend Mr. Shimkus to make sure I didn't hold up the hearing 
any today.
    Mr. McGinnis, you had a lot of interesting topics that you 
kind of went over. One of them was accident resistant fuels. 
Can you kind of describe what that is?
    Mr. McGinnis. Thank you for that question. Indeed, accident 
tolerant fuels is, really represents a class of advanced fuels 
that are being developed. There are three commercially led 
designs that are being where we are technically partnering with 
these three consortia. We selected them through a competitive 
process. And it includes one led by GE, one led by 
Westinghouse, and one led by what was known as AREVA.
    These three designs are being developed to be able to go in 
the current fleet of reactors and brings increased safety and 
economic benefits. Potentially there is great promise. 
Utilities are very interested in it. In fact, we are going to 
see a major milestone this year. We are going to see the first 
test pins, and also relatedly, test assemblies going into a 
U.S. operating reactor to begin testing this new fuel.
    There are three different types, but essentially all three 
offer improved cladding that can have greater heat tolerance, 
and also improvement in economics.
    So, those are moving forward. By end of 2019 we expect all 
three of these designs to have their initial test pins 
operating in reactors. We are looking at about 2025, hopefully 
even sooner, to have the first official fuel reloads going in 
if things get proven out to go into fleet. So these are, 
frankly, seen as game changers by many of the utility operators 
and owners of the, of the nuclear reactor fleet.
    Mr. McNerney. Well, SMRs are--to change the subject--SMRs 
are a big talk and maybe game changers, as we have discussed. 
The load following characteristics sound pretty good. I have a 
hard time picturing how you are going to get nuclear reactors 
to follow fast loads, but I will wait to be shown that. I will 
remain skeptical.
    And we talked about an SMR design being approved by the 
NRC. What about SMRs overseas, what are the--what is happening 
overseas? Mr. Atkins, you are probably the right one to answer 
that question.
    Mr. Atkins. Pardon me. Thank you for your question, but 
actually I believe this is probably----
    Mr. McNerney. OK.
    Mr. Atkins [continuing]. More of a question for Mr. 
McGinnis.
    Mr. McGinnis. Thank you again. In the past, for the past 11 
years, until recently being put in this position, I led the 
international nuclear work for the Department of Energy, which 
included advocacy for our U.S. nuclear exporters. And I can 
tell you firsthand, there are numerous countries, nuclear 
markets around the world that are watching very closely the 
progress of these U.S. SMR designs.
    And they are highly interested in these SMR designs, in 
particular the U.S. SMR designs, as indicated. We really are 
the leaders, bar none, in the design development. So one thing 
that would happen is you would--if we prove out the advanced 
SMRs in the U.S., this could open up an entire market globally 
for countries whose grids are just too small for a gigawatt or 
larger, but don't have the capital to be able to finance.
    Mr. McNerney. So would we be producing them and selling 
them, or would other countries take over our designs and 
produce them and sell them in our place?
    Mr. McGinnis. Ultimately, if a company has non-Government 
money in it, non-Federal dollars, it is going to be their call. 
Obviously, with tech transfer and other nonproliferation and 
NRC oversight for any exports. But I can tell you that when it 
comes to, in the Department of Energy, Office of Nuclear 
Energy, dollars that are put towards technically partnering, 
developing IP, joint development of an SMR, for example, we are 
definitely going to have a say in our cooperative agreements. 
And we are going to, frankly, insist that we see these, these 
reactors serve as an export product, not just migrating 
overseas.
    I can tell you that for NuScale, for example, it is 
intended to be factory produced. And the intent is absolutely 
to produce them in the United States. And they have already 
done a study that looked at the supply chain which essentially, 
in my view, validated the ability to be able to produce all the 
major components in the United States then export.
    Mr. McNerney. I was going to ask Mr. Owendoff about nuclear 
waste. But I think I am going to have to let Mr. Shimkus take 
that one.
    Thank you. I yield back.
    Mr. Upton. It is teed up. Mr. Olson.
    Mr. Olson. I thank the Chair.
    And welcome to our four witnesses. I am sorry for the vote 
cycle between your first appearance and second one.
    Nuclear power is very big back home in Texas 22. The South 
Texas Project Plant is about 100 miles south of my district, 
based in Texas. Opened in 1979. Been up and running now for 
almost close to 40 years.
    Hurricane Harvey direct hit on that reactor, those, those 
two reactors. Not one hiccup. Power flowing, nothing whatsoever 
happened because that Hurricane hit it dead on. That is 
impressive. That is why I will thank you for that.
    My questions for you, Mr. Atkins and Mr. McGinnis, by law 
any nuclear material that is used for atomic energy must be 
mined and enriched here in America. And while current 
projection indicates that this is not a problem in the future, 
the declining uranium industry and mining could make this a 
problem down the road.
    How are DOE and NNSA considering these long-term material 
needs given the short-term outlook for domestic nuclear fuel?
    Mr. McGinnis, Mr. Atkins, who wants to start off?
    Mr. Atkins. Well, I can certainly address that question as 
it relates to the use of uranium for the national defense 
mission. And that is, that is all uranium needs to be U.S. 
flagged, as well as produced with only U.S. origin technology. 
So, we cannot use uranium that has been processed with foreign 
technology for our weapons program.
    Mr. Olson. Mr. McGinnis.
    Mr. McGinnis. Thank you again. I would like to just 
reinforce that the nuclear energy sector in this country is 
seen by this administration as a national security issue. These 
are--the role of nuclear energy plays a key role in our 
Nation's energy security and broader.
    I would say that clearly extends to the health and 
viability of our Nation's nuclear fuel supply sector. And that 
certainly extends to the uranium mining sector. We want to do 
everything we can to support a market that provides the 
opportunities for the uranium miners in the United States to 
prosper and compete, particularly against state-owned 
enterprises that are coming in, whether it is Kazakhstan or 
others.
    It is a highly competitive market. And as you likely well 
know, our Nation's American-owned uranium mining sector is in a 
very, very challenging moment.
    Mr. Olson. Yes, sir. You read my mind, too, sir. As you 
mentioned, President Trump put out the National Security 
Strategy of the United States of America. He issued that in 
December of this past year. And it states, and I quote, ``The 
United States will promote policies and incentives that return 
the key national security industries to American shores.''
    And at the same time, the United States can no longer build 
a nuclear reactor using only U.S.-made parts and U.S.-owned 
technology which, as you mentioned, is required by law. Is it 
critical, to the whole panel, we make our technology and 
equipment here in America with American ownership? And how 
should we view a ``global'' marketplace?
    Mr. McGinnis, first shot.
    Mr. McGinnis. First I want to say that the White House is 
conducting a nuclear policy review per the direction of the 
President, and certainly is looking at the full breadth or our 
Nation's nuclear energy sector, again, for the purpose of 
revitalizing and expanding our nuclear sector, and that 
includes the fuel supply.
    I can tell you that in my view, not just the national 
security side, from an energy security side I think it is very 
important that we have a healthy, robust U.S. nuclear supply 
sector. And in the export market it is particularly important 
that our leading companies that sell reactors and other 
services overseas they are, that they are in a position to be 
able to partner with U.S. nuclear fuel suppliers to pair with 
the reactors.
    Mr. Olson. The disaster in India, we built the reactor and 
went to--I see you are kind of shaking your head down there. 
Mr. Atkins, your comments about a global nuclear marketplace?
    Mr. Atkins. Well, I think it certainly is important fo the 
defense mission that there is a strong and competitive domestic 
nuclear industry. There are clearly benefits on both sides. For 
the defense material, it really needs to come as a solution for 
our additional needs for uranium, really needs to come from the 
Government programs.
    We are, as I have mentioned, we are pursuing a domestic 
enrichment capability that will meet our needs for tritium 
production by the tritium need date of 2038 to 2041. That is a 
high priority for the department. But we are also looking at 
how that capability can also serve other needs, including 
commercial needs, such as needs for ISA uranium for research 
reaction, research reactors and medical isotope production, as 
well as a future need into the 2040s for HEU for naval 
propulsion.
    Mr. Olson. Thank you, sir.
    I saw the chairman has his finger on the trigger there to 
shut me off. So, Mr. Owendoff and Mr. McCree, please answer 
that question for the record.
    And, Mr. Chairman, I yield back by saying everybody in this 
room should know it has been 98 days since my Houston Astros 
have become the world champions. With all due respect to Mr. 
Doyle, that is 96 days more than your Eagles have been 
champions.
    So I yield back.
    Mr. Doyle. I am not an Eagles fan. I am a Pittsburgh 
Steelers fan. Let us get that straight.
    Mr. Upton. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I want to thank you and 
the ranking member for holding the hearing today.
    As Hurricane Harvey hit our districts in South Texas, the 
South Texas Project and Nuclear Plant based in Bay City was 
hit, too. Despite how rough the hurricane was, workers 
weathered the storm at the controls and kept the lights on for 
over two million people in the Houston area.
    Workers at the plant managed to convince a local grocery 
store manager to open up to replenish supplies, and ran to 
Walmart to buy $2,000 worth of underwear, clean socks, and 
other essentials for plant workers who could not get back to 
their flooded homes, and worked in rotational shifts throughout 
the multi-day storm. I have no doubt that the loss of the power 
would have occurred without this, and would have led to even a 
more tragic loss of life and destruction in the storm's path.
    Nuclear also often gets a bad rap, especially when it comes 
to natural disasters. South Texas project as recently as 2011 
was going to expand to build two new reactors on site. After 
Fukushima disaster, funding evaporated. And I look forward to 
talking with our witnesses today about the importance of 
nuclear energy and what role it is to play in the grid of the 
future.
    Mr. McGinnis, in your testimony you talk about the upcoming 
civil nuclear review. What are some of the general ideas we can 
expect to see when it comes to ways to revise and expand 
nuclear power?
    Mr. McGinnis. Thank you very much. In multiple ways 
concurrent and not waiting until a nuclear policy review is 
completely done, we have a challenging time in our nuclear 
sector. As indicated, it is at an inflection, if not tipping 
point. I think to the great compliment of the White House we 
have been told clearly at the Department of Energy, take 
actions now as far as ways by which we can support reviving and 
revitalizing and expanding the nuclear sector.
    So, with regards to the current fleet, with regards to 
South Texas Power Plant, it is a critical, vital asset that we 
can rely on 24/7, rain, sleet, or snow. So, we are very, very 
proud of the workers, of the dedication of that nuclear power 
plant during the most important time to provide power to the 
residents. Very proud of that.
    And that only, in my view, serves to reinforce how 
important it is with our all-of-the-above strategy that we 
support a continued vibrant nuclear sector to complement the 
other generating sources in our electricity grid mix.
    Mr. Green. Well, and coming from Texas it is, you know, 
with the natural gas so cheap, and if you just economically 
look at it, but that power plant provides about 20 percent of 
the power in our area. And we could always use additional 
stationary power that would be good for 40 to 50 years.
    How close are we seeing small modular reactors as a 
mainstream possibility? And how could that revolutionize the 
nuclear industry?
    Mr. McGinnis. Thank you. Very close, in my view, sir.
    As indicated, NuScale represents probably the most mature, 
from a deployment perspective, of those advanced light water 
reactor small modular reactors. That is one reason why we have 
invested in a technical partnership with them.
    2026 is, again, an important target date. As indicated in 
my testimony, in my remarks, we are facing, in my view, a cliff 
sooner than we thought with regards to the, the drop in our 
fleet of reactors at 20 percent. And we are facing now a very 
possibility, real possibility of having a dramatic reduction 
from 20 percent dramatically down by the end of the 2020s. So 
it is very important that we see these new advanced SMRs coming 
in the pipeline and coming into market by the late 2020s. 2026 
is the right time.
    I want to also mention microreactors. Those have tremendous 
promise. They are smaller generation, 2 to even as high as 30 
megawatts electric, but they are very exciting, very promising. 
And there are, in fact, a couple of them; one in particular 
that we are communicating with that has plans of potentially 
deploying its first microreactor by 2021 or 2022 in the United 
States.
    Mr. Green. OK. Can you talk, can you talk a little bit 
about the non-LWR technologies are different from typical 
reactors? And how is the application process different for 
these reactors?
    Mr. McGinnis. Yes, indeed. We are actually funding, 
partnering with a number of nonlight water advanced reactor 
companies in the United States that are really leading the 
world in advanced technologies. The applications go well beyond 
electricity generation.
    We are talking about gas-cooled high-temperature reactors 
that offer applications for petrochemical, for hydrogen 
production, and other hybrid generation. We have other designs 
such as molten salt. We have TerraPower with Southern 
developed. TerraPower is a company partly owned by Bill Gates. 
They are working on a molten salt design that has very 
promising nonelectric application. Certainly sodium-cooled fast 
reactors, we have deep experience in that.
    So, essentially those are game changing. Once they--and 
hopefully they do get proven out, and then suddenly we will 
have a much broader opportunity to apply the nuclear reactors 
to nonelectric applications.
    Mr. Green. I yield back what time I don't have.
    Mr. Olson [presiding]. The gentleman yields back. The Chair 
now calls upon the heartbeat of Ennis, Texas, the vice chairman 
of the full committee, Mr. Barton, for 5 minutes.
    Mr. Barton. I am sure that some people in Ennis would 
dispute that. But I appreciate it.
    Anyway, I am not sure who to ask these questions to because 
I am going to go a little bit off the purpose of the hearing. 
Mr. McGinnis, or Deputy Principal Secretary McGinnis, I guess 
is the highest ranker. So I am going to go with you. But if the 
others think it is your question, feel free to step in.
    Secretary McGinnis, can you tell me how many dollars 
ratepayers have paid into the high-level nuclear waste disposal 
fund since its inception?
    Mr. McGinnis. I want to give you the exact number, so I 
have to get back with you on that. But certainly it is very 
substantial. And the Nuclear Waste Fund is in the, I believe, 
$30 billion range, but that includes interest.
    Mr. Barton. My number is $35 billion. But $30 billion is a 
big number. So that is good.
    Can you tell us how many of those dollars have actually 
been spent for high-level nuclear waste disposal? Again, I 
don't need the exact number, just a general number.
    Mr. McGinnis. I will definitely have to get back with you 
because I don't want to give an inaccurate number. I can tell 
you that the Office of Nuclear Energy right now has a very, 
very minimal number, in the single digits in millions, maybe.
    Mr. Barton. Yes, it is not 35. It is well below 30 to 35 
billion. No matter how you do the accounting, it is a small 
number.
    Mr. McGinnis. Yes.
    Mr. Barton. You could even say zero and it wouldn't be too 
far off the mark.
    Is the department aware that this subcommittee and the full 
committee passed a bill to break the impasse on that? And it 
passed the full committee 49 to 4, and it would allow for 
interim storage. It would allow for spending for a permanent 
waste depository. It would allow for the licensing process to 
go forward for a yes or no answer at Yucca Mountain.
    That bill has not been scheduled for floor time yet. And it 
hasn't gone to the floor because the appropriators have, in 
their infinite wisdom, spent the $35 billion that was deposited 
in the Waste Fund, for other purposes. And that may or may not 
have been a good thing to do at the time. But the fact remains 
that the bill that passed out of this committee is a long-term 
permanent solution, bipartisan. And we are now at an impasse 
with the appropriators because they claim they don't have any 
money to fund high-level waste disposal, and don't want to 
agree to a long-term funding profile.
    Is the department aware of that problem?
    Mr. McGinnis. We are aware of the legislation. And I would 
like to, respectfully, just emphasize that we submitted $120 
million not only to resume the license application, but also 
for the initiation of a robust interim storage program.
    Mr. Barton. Well, you know, the expert on this particular 
issue is Congressman Shimkus on our side. So but I want to ask 
could you use your good offices to encourage the department, 
the Trump administration to help come up with a solution on 
funding on a long-term basis so we can get this bill to the 
floor and then to the other body, the other body being the 
Senate.
    I have been here since '85. I was in the department in 1982 
when the High Level Nuclear Waste Disposal Act was passed. And 
I would like to still be in Congress when we actually fund it. 
And as your current Secretary said famously back in Texas, 
let's get on down the road.
    So, can you encourage the department and the Trump 
administration to help us find a solution to this funding 
issue, please?
    Mr. McGinnis. I and my colleague at the Department of 
Energy will do our very best. And also as the Secretary said, 
it is very important that we stop kicking the can down the 
road.
    Mr. Barton. All right, thank you. And with that, I yield 
back, Mr. Chairman.
    Mr. Olson. The gentleman yields back.
    The Chair now calls upon a fan of Terry Bradshaw, not Ron 
Jaworski, Mr. Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman.
    It is clear to me that the nuclear energy industry is 
critical to our country. It provides us reliable baseload power 
with no carbon emissions. It provides thousands of good jobs 
around the country. And it's a vital component of our national 
security.
    And I share the opinion of many analysts and energy experts 
who believe that we can't lose this source of energy if we have 
any hope of meeting our Paris emission targets. It is clear 
that we need to do more to bolster this ailing industry, so I 
am glad we are having this hearing today. And that would 
include holding a formal hearing on H.R. 1320, which I worked 
on with Representative Kinzinger. And I would like to thank him 
for his leadership on this issue. And I hope this committee can 
hold a legislative hearing on it soon.
    Mr. Atkins, I want to ask you about the 123 Agreements. 
Your testimony highlights the role that your agency has in 
these agreements. And given the existing market issues for 
nuclear power here domestically, it seems like international 
markets will be critical for maintaining a strong nuclear 
industry in the United States.
    I just want to know, do you feel that there is adequate 
cooperation and communication between the range of Federal 
agencies required to draft these types of agreements?
    Mr. Atkins. Thank you for that question. You know, we, our 
position is that the U.S. still has the best technology 
available. And we want to facilitate access to global markets. 
We do work very closely with the Department of State and other 
agencies that are involved with 1--the negotiation of 123 
Agreements. And we believe that this relationship is very 
productive.
    We most recently have negotiated, finished negotiations 
with Mexico in 2016. And that agreement is currently in the 
White House for final review.
    And we are in the process of negotiating with the United 
Kingdom, too, on a new 123 Agreement for peaceful nuclear 
cooperation with them that would replace the existing agreement 
as they pull out of the European atomic energy community.
    So there is a lot going on in this space. And we, we do 
invest quite a bit of time and effort. And we are confident 
that we have the right team to push this forward.
     Mr. Doyle. Yes. And just following up, many of these 123 
Agreements and standards were drafted at a time of American 
dominance in the nuclear sector. And as you know now, the field 
has many more international players. How does NNSA view these 
developments in consideration with the existing 123 Agreement 
process?
    Mr. Atkins. I think we, we continue to be committed to, to 
see, you know, these 123 Agreements go forward with the, the 
best nonproliferation standards that are possible. But I think 
that there is an attitude of realism, and that we, we have to 
balance the importance of ensuring that our industry is able to 
compete and not withheld from these markets.
    So, so there is certainly consideration given to changes in 
the environment, and we adjust our policy accordingly.
    Mr. Doyle. Thank you.
    Mr. McCree, the current NRC funding structure requires fee 
payments from existing or operational plants that make up about 
90 percent of the NRC budget. With the dramatic increase of 
premature retirements, are you concerned about the 
sustainability of this existing structure for your agency's 
budget?
    Mr. McCree. So, thanks for the question. As I indicated in 
my testimony, we are committed to ensuring that our fees are, 
and our fee process is clear; that the fees are fair; and that 
the process is transparent. And to that end, regarding 
potential shutdowns of operating nuclear power plants, one of 
the first things that we do is adjust our budget as the plant 
goes into decommissioning to reflect the lower amount of work 
that we anticipate as a plant goes from an operating status 
into a decommissioning environment.
    That is essential and that helps to minimize the burden, if 
you would, of the costs that would convey to the rest of the 
industry.
    We are also engaging in additional activities, again from a 
fee fairness standpoint, that I believe would give additional 
balance in the area. So, we are interested of course in, again, 
making sure that there is clarity, and fairness, and 
transparency. I wouldn't characterize it as a concern.
    Mr. Doyle. Mr. McGinnis, I was encouraged to read your 
strong support for the nuclear industry. As you explain in your 
testimony, it provides 60 percent of the Nation's emissions-
free electricity. However, when you look at the fiscal year 
2018 budget request we received, it features a $283 million cut 
from fiscal year 2016 levels. The request went from just under 
a billion down to 730 million.
    So, while I appreciate the emphasis the department has 
placed on early stage R&D, and your openness to advanced 
nuclear, your testimony and the budget request seem 
contradictory. Should we anticipate a revised request in this 
year's budget request?
    Mr. McGinnis. Thank you very much. It would be premature to 
speak about the request. That is going to be rolled out next 
week. Hopefully, you will see some positive aspects of that in 
our budget request.
    But having worked in the Office of Nuclear Energy for 11 
years, I can say one thing emphatically, and that is there have 
been many, many bright, capable leaders in the Office of 
Nuclear Energy and industry that have attempted to support the 
nuclear sector in a manner that is going to change from this 
downward trajectory, this tipping point, back to an upward 
growth.
    And, frankly, we have not succeeded. We are witnessing an 
historic downward trend right now. Whatever we are doing, it is 
not enough.
    So I would just like to respectfully say what I have done 
in my office is taken that to heart and asked ourselves not 
just a function of additional funds, but what are the things we 
are missing? What are the things that we can be doing, at least 
on the Federal side?
    We can make our facilities, Idaho National Lab, advanced 
test facilities that companies could never hope to pay for and 
build themselves, make it more user friendly. We have another 
approach where we are--we have a funding opportunity 
announcement with industry. We have already announced it. And 
we are getting strong responses.
    The intent for that is to get away from the Federal 
Government or DOE, Office of Nuclear Energy, trying to pre-
judge what the most important space for the Department of 
Energy to be in in partnering with the nuclear companies, and 
let them propose to us where the specific highest impact areas 
are.
    So I am excited about some things that we are doing that 
are even beyond just the function of the actual level of 
budget, which I think is necessary. We need a robust budget.
    Mr. Doyle. I see our chairman has been hitting his gavel 
for quite some time. So I thank you, Mr. Chairman.
    Mr. McGinnis. Thank you.
    Mr. Doyle. I yield back.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the chairman of the Environment Subcommittee, Mr. Shimkus, 
for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. I appreciate Joe 
Barton's comments, so I am going to get--I want to prove that I 
am not a Johnny One Note on closing the nuclear fuel cycle and 
I'm going to go with some different areas.
    Ostendorff for sure will appreciate this from a simple 
infantryman. So we mine uranium, we process it into yellow 
cake, we convert it into UF6. That is what happens, and we 
would like for it to be happening in Metropolis, Illinois. We 
enrich it to U-235. And then we use it for fuel, civilian 
reactor fuel. We use it for our Navy fleet. And we use it for 
our weapons.
    So my question goes on the bartering process which kind of 
undercuts this process and I believe really hurts the chain, 
the fuel chain development, and threatens it at the most. So, 
Mr. Owendoff, what is the administration doing to help move 
funding for its important cleanup missions to be fully 
appropriated by Congress?
    Mr. Owendoff. Sir, thank you for the question. Certainly 
barter has been an important part of the cleanup at the 
Portsmouth site. Last year, in May of 2017, the Secretary 
reduced the amount that we would barter from 1,600 metric tons 
a year to 1,200 metric tons a year. He is ----
    Mr. Shimkus. So let me just go. Is the administration doing 
anything to move this to an appropriations process to help fund 
these cleanups versus its bartering process? That is the basic 
question.
    Mr. Owendoff. Sure. We did that last year, sir, in 2017.
    Mr. Shimkus. Well, you are diminishing it.
    Mr. Owendoff. Yes, sir.
    Mr. Shimkus. The question is are you moving it, are you 
asking to move it to an appropriations process away from a 
bartering process?
    Mr. Owendoff. I believe that we have, we have done that. It 
is----
    Mr. Shimkus. Why don't you just come and talk to me about 
the issue.
    Mr. Owendoff. Yes, sir.
    Mr. Shimkus. Obviously it is important.
    Mr. Owendoff. Sure.
    Mr. Shimkus. Mr. McGinnis, can you provide an update on the 
status of DOE's revision of its uranium management plan?
    Mr. McGinnis. Yes, indeed. In fact, we are towards the tail 
end of revising the uranium management plan. And we intend to 
then put it out into the Federal Register notice for public 
input.
    And, again, one of the things that I worked in my early 
years in the Office of Nuclear Energy was the initial 
development of the uranium management plan back in 2008 or so. 
I believe it has been very valuable in showing transparency and 
the full sweep of nuclear transfers that the Department of 
Energy is engaged in.
    Mr. Shimkus. Let me follow up on a comment you made about a 
concern about possible state actors undercutting our production 
in the future. We have got this administrative review going on 
to figure out what happened in December with the suspension of 
the agreement on uranium from the Russian Federation. There are 
many of us who are concerned that, just like any trade issue, 
if it is unfair trade, if it is subsidized by a government 
entity might be good for lower prices but not good for the U.S. 
manufacturing sector. And that is what we are talking about, 
manufacturing fuel for this.
    Can you, will you provide an update on the expected timing 
of this review and DOE's role as part, your role in this 
process?
    Mr. McGinnis. Thank you very much. The Department of 
Commerce is the lead for the Suspension Agreement and the 
oversight and enforcement of that agreement. There is a second 
action that was recently submitted to Department of Commerce by 
the Uranium Miners' Assoc--or uranium miners who are 
petitioning a separate but ultimately possibly related issue 
from a sector issue.
    We work very closely with the Department of Commerce. In 
fact, we met with them yesterday on these very issues. So they 
look to the Department of Energy as experts to provide 
important----
    Mr. Shimkus. OK, let me--and I don't--just because of time, 
we will talk with the Department of Commerce and follow up on 
that.
    Mr. Atkins, does the NNSA have any issues involved in this 
discussion with Department of Commerce on this agreement and 
the review?
    Mr. Atkins. We, given that the Department of Commerce has 
the lead, we certainly are working closely with them to ensure 
that the national security interests are represented in the 
investigation, certainly.
    Mr. Shimkus. What does that mean in English?
    Mr. Atkins. It means we are working with the Department of 
Commerce. They are in the lead on considering the petition, and 
we are representing what are the implications for the national 
security issue.
    Mr. Shimkus. Let me finish with Mr. McGinnis.
    I have also been involved with Eastern European issues. And 
obviously NUCON Power being built, and the Russians building. 
And we are not building. What happens to our lead if other 
countries aren't looking for us to help build nuclear power 
plants?
    Mr. McGinnis. Thank you for the question. A lot happens, 
both in the export and also the national security space. In my 
view--and I will defer to Mr. Atkins to elaborate--but again, 
as having led the international export support for nuclear 
energy for 11 years, I have worked very closely with the 
Russian exporters, with the Chinese exporters, and others. And 
when they win these reactor deals, there is no U.S. content in 
these reactors, period.
    So, the contracts that are written that directly, most 
determinatively lay out an agreement on the control of the 
materials is being determined by that supplier. And it is not 
American companies in these cases.
    Mr. Shimkus. Let me help my chairman out. Thank you.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the gentlelady from Florida, Ms. Castro, for 5 minutes--
Castor.
    Ms. Castor. Thank you, Mr. Chairman. Thank you to the 
witnesses for being here today.
    The United States has been the leader for decades in 
nuclear research and in commercial nuclear power deployment. 
But I have to tell you that folks on the west coast of Florida 
view nuclear power and its future with a very skeptical eye. 
And it stems from the fact a few years ago the legislature 
passed a utility-backed law for advanced nuclear recovery fees. 
And one utility commenced to open a new nuclear power plant and 
also fix one of the older ones.
    The fix went awry. And the other plant was never 
constructed. And yet, the ratepayers were on the hook for 
almost $3 billion, and not one kilowatt hour of energy was 
produced. And they are still paying those fees.
    So I would like to know, Mr. McGinnis, what, what do you 
say to them? They, they see very high capital costs. They 
understand the issue of nuclear waste. They understand the 
natural gas revolution, the low cost of natural gas, the low 
cost of demand management, the low cost of clean energy and 
renewables. I think they understand the importance of a diverse 
energy portfolio and to have carbon-free energy sources.
    But net/net, boy, this has not been a good deal for folks 
in my neck of the woods. What do you say to them about the 
future of nuclear power?
    Mr. McGinnis. Thank you very much. Respectfully, we have 99 
reactors operating around the country, as we know; nearly 
500,000 jobs directly and indirectly support that very 
important, high-paying industry. We do see a very, very 
important role of nuclear.
    With regards to specific commercial projects in specific 
States, ultimately these are issues that are determined and 
driven largely by the companies, by the regulators, by the 
States. And we respect that. Certainly we want to see healthy, 
viable plants, construction start and see-through, and return 
that investment to the ratepayers. That is what we want to do.
    But to the extent to which the Department of Energy can 
play a role, we are working in our wheelhouse, which is 
research and development, and we are working with companies, 
utilities or for the purpose of developing technologies that 
can support better economics, more efficiency, with strong 
safety. We are doing our best in our arena. And we certainly 
want to see healthy, successful nuclear projects, just like the 
all-of-the-above with other energy projects in this country.
    Ms. Castor. Do any of the other witnesses have a comment 
and what you would say to ratepayers that, you know, trying to 
convince them that, yes, this is important for the United 
States Congress to prioritize nuclear energy over other 
investments?
    [No response.]
    Ms. Castor. OK. Mr. McGinnis, some of the other witnesses 
in their testimony have said that the Department of Energy, 
while it is positive that they have $30 million on the street 
for early stage R&D in the development of small modular 
reactors, that really the Department of Energy is interested in 
this but not truly invested in the future. How do you answer 
that?
    Mr. McGinnis. Thank you very much. I think when you hear 
some of the other witnesses, including the Director of the 
Idaho National Lab, I think you will hear a compelling 
reinforcement of how we are not just interested, we are fully 
invested. We live and breathe the health and viability of our 
nuclear sector in my office; I can tell you at the laboratories 
where they are doing work for us.
    So we think, and we are doing----
    Ms. Castor. So the laboratories do an outstanding job. I 
mean this is probably one of the great points of pride for the 
United States of America, everything that is happening in the 
national laboratories. What is going on with commercialization, 
though, and deployment? I think that is probably the criticism.
    Mr. McGinnis. Yes. And one of the things we must do is look 
in the mirror and see our weaknesses, not just our strengths. 
Our strengths are advanced reactor designs, bar none the most 
efficient fleet operated in the world; best regulatory body. 
But what we have to work on is deployment. We have, obviously, 
gone for decades without building a reactor until we see what 
is happening in Vogtle.
    We have much to look back and see what we can do to 
improve. We have a lot to work on in the space where we can 
actually take research and development, make our laboratory 
capabilities accessible to the utilities, such as advanced 
tolerant fuel--accident tolerant fuels. That could be a 
significant impact on the economics.
    But what we are trying to do is take our laboratory 
capabilities, which the--which my office largely significantly 
funds, and make those capabilities available to industry as 
they move forward.
    Ms. Castor. Yield back.
    Mr. Olson. Time has expired. The Chair will now call upon 
the gentleman from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Thank you very much, Mr. Chairman. And thank you 
very much for our witnesses for being here. And before I get to 
my questions I would also like to begin by repeating what the 
witnesses' comments about the importance of nuclear power.
    I have been in support of nuclear power because I believe 
it is important for our energy mix and our national security. I 
also believe it is important that we take the entire supply 
chain, including the communities that support nuclear power 
plants into account. I want to think about how nuclear power 
impacts our energy and security.
    We must continue to work to ensure that the U.S. remains on 
the forefront of nuclear innovation, and this has to involve a 
discussion of our current fleet, as well as the future of 
nuclear in this country.
    And if I can start with you, Mr. McCree. In December, the 
NRC released a report titled ``A Regulatory Review Roadmap for 
Non-Light Water Reactors,'' which provided a list of options 
available for NRC to review both pre-application and formal 
applications for advanced nuclear technologies. I appreciate 
NRC's leadership to work through some of the policy challenges 
associated with licensing of advanced nuclear designs.
    Mr. McCree, what do you view as the most critical issues to 
resolve as part of your regulatory review of nonlight water 
reactor efforts to provide some certainty to the stakeholders?
    Mr. McCree. Congressman, thank you for the question. The 
document that you reference, the Regulatory Review Roadmap, is 
actually one of the seven items--seven activities, rather, that 
we explicitly identified in our, as part of our new term 
strategy to address the three objectives that I mentioned in my 
opening remarks: optimizing our regulatory infrastructure; our 
technical infrastructure; and our communications.
    It outlines literally a roadmap, an approach from the 
research and development through the conceptual and 
preliminary, and then the final stages of design and 
development for an advanced nonlight water reactor, with an 
approach that, that is more flexible, that is staged. That is 
terminology that both the industry, the DOE, and the NRC 
understand to provide greater predictability, efficiency, 
transparency on what comes next; when and how to engage the 
regulator in these advanced nonlight water reactor designs.
    That is a key step. There are other important deliverables 
in the near term, including identifying the design criteria, if 
you would, the current fleet of plants where most were 
developed using a general design criteria in our regulations. 
We need to adapt and identify design criteria that support 
nonlight water reactor designs.
    The DOE developed a document, Principal Design Criteria, 
and we have used that to create a draft of design criteria for 
these same reactor designs. So that, and other activities are 
explicitly identified in our plan as we are moving forward.
    Mr. Latta. When we look at that plan, and with the 
initiative, what do you think is going to be the most 
challenging part for the NRC as you move forward?
    Mr. McCree. Well, again, I am hesitant to identify one that 
is most challenging. I think all are achievable. And we 
developed the interfaces with the DOE and with the industry, 
with the applicants, to work through a full range of issues.
    There are policy matters that we will engage the Commission 
on, one of which already is from the emergency preparedness 
perspective, we have already issued the regulatory basis for 
that. There are other issues associated with the siting and 
with security that need to be engaged, again, from a policy 
perspective.
    Again, all are achievable activities, and we are just 
applying continued effort to progress on them.
    Mr. Latta. OK. Let me follow up with one other question if 
I may with you. The NRC under existing statute must recover 
approximately 90 percent of its fees from licenses. NRC 
currently bills its licensees or applicants about $263 per 
hour, which is a high burden on companies seeking to develop 
new nuclear technologies.
    The Advanced Nuclear Technology Development Act, which I 
authored, authorized limited funding outside of the fee base 
for the development of certain generic regulatory activity to 
help facilitate new technologies. And there will be a witness 
on the second panel today that proposed reforming the fee 
structure for new reactors.
    Has NRC explored reforms to its fee structure to allow more 
predictability in its fee collection to help assure we nurture 
the domestic nuclear innovators and with some flexibility along 
with that?
    Mr. McCree. So as I indicated in my opening remarks, we are 
certainly interested in our fees, our fee structure being 
clear, more transparent and fair. And that would apply to 
advanced nonlight water reactor vendor applicants as well. So 
they will benefit from the improvements that we make in this 
area as well.
    Mr. Latta. Well, thank you very much.
    And, Mr. Chairman, my time has expired. I yield back.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the gentleman from the Empire State, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chair. And thank you all for 
being here.
    Mr. Owendoff, you mentioned the Separations Process 
Research Unit, their cleanup--which is in my district--in your 
testimony. SPRU demonstrates how difficult, long and, indeed, 
expensive these cleanups can be. I appreciate the office's 
attention to the site, but I know there are many of these sites 
from the 1940s and 1950s around the country that also need 
funding and remediation.
    Similarly, the majority's memo mentioned Congressman Reed's 
bill on the West Valley Demonstration Project. I support this 
approach, and hope this is something the committee can more 
fully consider in the future. But I would also like to stress 
that this should be done in regular order. I hope the majority 
might be interested in examining that issue further.
    The work being done to research and develop advanced 
nuclear technologies, such as small modular reactors, is 
incredibly important. We need new nuclear reactor designs that 
produce cost-competitive electricity safely. It is critical for 
making major reductions in greenhouse gas emissions. But this 
cannot be done without Federal R&D funding. DOE research 
dollars are at the heart of the United States' global energy 
competitiveness.
    Mr. McGinnis, can you describe, please, the relationship 
between the DOE, the national labs, and the private sector in 
developing nuclear energy research priorities?
    Mr. McGinnis. Thank you very much. The relationship is very 
strong. We work, obviously we--the majority of our funds that 
we apply to our research and development go to our national 
labs, such as Idaho National Lab, Oak Ridge National Lab, and 
others. We are pushing the envelope, trying to be more 
innovative.
    So we are really putting a value on having all the 
leaders--industry, even the universities, national labs--coming 
together and working together to go at some of the technical 
barriers that are preventing or keeping us back from realizing 
the new innovative technologies in our market.
    We also work very closely, again, with the NRC. They have 
such a key role. And a lot of the technical issues we are 
attempting to dispatch will directly, in my view, help and 
benefit the NRC as they go through these reviews as well.
    Mr. Tonko. Thank you. And I mentioned the relationship 
amongst the agency labs and the private sector. What role have 
the labs, the national labs, played in the development of 
advanced nuclear reactors?
    Mr. McGinnis. Vital roles. Idaho National Lab is a founder 
in advanced test react--in advanced reactors. They have, I 
believe, built over the years 57 or so reactors. And now they 
are also home to one of our lead test capabilities in the 
advanced test reactor, and just resuming the transient test 
reactor, which both of those are unique capabilities for our 
country.
    Mr. Tonko. Thank you.
    And our national labs are critical to not only nuclear but 
all energy innovation. So I would once again urge that the 
President's budget request reflects this and preserves DOE's 
energy innovation budget. It is absolutely critical.
    I also want to highlight the importance of maintaining a 
robust, domestic nuclear enterprise from manufacturing, to 
supply chain, to human infrastructure. Mr. McGinnis or Mr. 
Atkins, do either of you want to comment on the importance that 
preserving these capabilities goes to both our national 
security interests as well as the future of the United States' 
nuclear energy industry?
    Mr. Atkins. From the nuclear security side of things we 
clearly see an interplay between the domestic civil side and 
the national defense side. As has been discussed a number of 
times, there are fewer and fewer operational nuclear facilities 
in the United States, and certainly our domestic and our 
ability to have an effective nuclear security program is really 
reliant on people that have hands-on experience in the nuclear 
field. And so, having a vital domestic nuclear industry helps 
us to provide those opportunities for people that may in fact 
at some point in their careers come back to the--come to the 
national defense side.
    So, you know, in terms of innovations on both sides, we 
hope to see some push and pull from this as well. We think that 
this is a symbiotic relationship that needs to continue.
    Mr. Tonko. And Mr. McGinnis.
    Mr. McGinnis. Thank you very much. The fact is, reality is 
we have lost a lot of our manufacturing capability. We want to 
take what we are still world class at, advanced modeling and 
simulation, additive manufacturing, and other innovative 
approaches we are seeing in the labs and also in industry, take 
that and what we are calling leapfrogging. We want to leapfrog 
back into the leadership of manufacturing.
    There are promising areas such as modeling and simulation, 
additive manufacturing, even 3-D printing. Very exciting. We 
have facilities in the northeast and others commercially where 
we are partnering with them.
    So I think we have a real impact opportunity in that arena.
    Mr. Tonko. Thank you. And with that, Mr. Chair, I yield 
back.
    Mr. Olson. The gentleman's time has expired. And the Chair 
calls upon the gentleman from the Commonwealth of Virginia, Mr. 
Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman.
    Mr. McCree, some nuclear technology companies are looking 
to the Canadian or British nuclear regulatory bodies to help 
advance a regulatory model for advanced reactors. What lessons 
can be learned from looking at fellow regulatory bodies? And is 
there a role for the NRC to partner with those governments to 
provide a standard roadmap amongst our allied countries?
    Mr. McCree. Congressman, thank you for your question. 
Regarding partnerships, as I alluded to at a high level in my 
opening remarks, we at the NRC have a very robust relationship 
with our international regulatory counterparts. You mentioned 
the Canadians, and particularly the Canadian Nuclear Safety 
Commission is our regulatory counterpart. I am very familiar, 
actually, with their--with my counterpart there. We serve on 
several committees together, and have engaged as recently as 
August. I was in Ottawa engaging in conversation with several 
other regulators and the Nuclear Energy Agency about 
cooperation on small modular reactor, in the area of small 
modular reactors, which I believe can bear fruit.
    Of course, there would need to be, as we have concluded, a 
common, some commonality in the types of reactor designs that 
are being reviewed respectively for us to have some mutual and 
synergistic sharing. I see that happening. I know the 
Commission is, of course, interested in that as well.
    With the recent announcement by NuScale of potential 
pursuit of vendor design review by the Canadians, there is 
certainly that opportunity perhaps in the near term with 
NuScale. And, again, I believe it would be synergistic. We 
won't just learn from them. I would venture to say that there 
is great opportunity for them to learn from us as well.
    Mr. Griffith. I appreciate that. Thank you very much.
    Also, when was the last time that the NRC operated with a 
full complement of Commissioners, do you know?
    Mr. McCree. Congressman, I have to take that for the 
record.
     Mr. Griffith. No, I understand.
    Mr. McCree. I believe it is--I wouldn't speculate, but I 
believe it has been well over a year ago that we had a full 
Commission.
    Mr. Griffith. And it is better if you have a full 
Commission, isn't it?
    Mr. McCree. I certainly enjoy the Commission that we have 
today and have actually served in the agency long enough to 
have seen the full Commission work very well. And when we were 
less than a full Commission we were similarly effective. But, 
again, I believe we would look forward to having a full 
Commission.
    Mr. Griffith. Is there an incentive to have five? I think 
you are operating currently with three.
    Mr. Ostendorff, you served as an NRC Commissioner in 
varying compositions. Is a full slate of five a little bit 
better than three? Are five minds better than three?
    I won't go to Mr. Ostendorff, put him on the spot this 
time.
    Mr. Ostendorff. Let me help you out. I was there as a 
Commissioner from 2010 to 2016. I think the last time there 
were five Commissioners there was in 2014.
    And I can speak, from a diversity of view and 
collaboration, we are always better off with five Commissioners 
than three.
    Mr. Griffith. I appreciate that. Thank you. I do appreciate 
that as well.
    Now, I will shift down with what little time I have 
remaining to Mr. McGinnis. You talked earlier in some of the 
questions to--that Mr. Shimkus asked, we talked about the 
impacts of having to import our uranium, et cetera. What is DOE 
doing? I got all that you are working with the Commerce 
Department. What is DOE doing with trying to make sure that we 
make mining of uranium in the United States safe?
    Because just outside of my district there is a big rock of 
uranium that the State of Virginia has been hesitant, for 
safety reasons, to allow the mining of. So what are we doing 
from DOE's perspective to make that better?
    Mr. McGinnis. Thank you very much. The Office of Nuclear 
Energy at the Department of Energy really does focus on 
research development within the fuel cycle. It does include 
front-end extraction issues.
    With regards to regulatory oversight, that would be beyond 
my office. Always stand ready to provide input, but certainly 
those are, those are issues, responsibilities that fall under 
other agencies and other programs.
    Certainly can take that for the record and get you more 
information, if you would like.
    Mr. Griffith. I would appreciate that very much. I think 
the folks over in Pennsylvania County would appreciate it, too, 
because there is a big asset sitting there that rightfully they 
are concerned about mining. But at the same time, it is 
estimate 7 to 8 years ago was it is a $12 billion rock sitting 
there. Might be nice to get to it.
    I yield back, Mr. Chairman.
    Mr. Olson. The gentleman yields back. The Chair reminds all 
Members there is no panel jumping.
    The Chair now calls----
    Mr. Griffith. In all fairness, Mr. Chairman, that was my 
fault. I can't blame that on them.
    Mr. Olson. The Chair now calls upon the gentleman from 
Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman, I appreciate it.
    You know, I have been drafting legislation to improve the 
efficiency of the approval process for what is known as the 
Part 810 authorization. And I am eager to introduce it once we 
get it finalized.
    At our recent subcommittee hearing with both--with senior 
DOE leadership, both Deputy Secretary Brouilette, and then NNSA 
Administrator Klotz, assured me that U.S. civilian nuclear 
industry engagement in the global market is priority for this 
administration. Information we have received from DOE, as well 
as recent reports from the Nuclear Innovation Alliance, detail 
longer review times for certain projects, and additional delays 
within the inter-agency approval process.
    So, Mr. Atkins, let me ask you about a couple of specific 
issues related to this. The previous administration's DOE 
reversed a longstanding policy which allowed the Secretary to 
delegate signature authority for certain authorizations as a 
result of a more strict interpretation of the Atomic Energy 
Act. Do you know if the current administration is looking at 
changing that policy?
    Mr. Atkins. Sir, at this time the general counsel has 
continued to stand by their interpretation of the Atomic Energy 
Act, that the Secretary of Energy cannot delegate that.
    Mr. Johnson. That wasn't my question.
    Mr. Atkins. We are not considering.
    Mr. Johnson. OK. So you are saying that you are going to, 
right now you are going to stay with the interpretation of the 
previous administration? You are not looking at reviewing or 
changing that?
    Mr. Atkins. We are always looking to review ways to 
increase the speed of reviews. But my understanding is that we 
are not looking at delegating that authority.
    Mr. Johnson. OK. Would the administration consider a 
statutory clarification to be helpful in this regard?
    Mr. Atkins. The understanding is that it would require a 
legislative change to change that, and that we would certainly 
be interested in working with Congress on that.
    Mr. Johnson. OK. Under the Bush administration I understand 
that the Energy Secretary would receive the authorization 
package from DOE staff, which the Secretary could approve 
contingent on receiving the necessary assurances from the State 
Department that are required under the Part 10--810 rules. 
However, now, currently DOE waits on the entire approval 
package in a sequential manner, which has increased the length 
of time for companies seeking DOE signoff.
    Will DOE consider returning to the more efficient process 
by which the Secretary can sign off on an authorization ending 
the sign-off by the State Department?
    Mr. Atkins. I think that the short answer, I will give you 
the short answer here: yes. I think we are willing to 
reconsider that and are reconsidering that. The long review 
time is really this international nonproliferation assurance 
requirement that we have. But we are willing to do whatever we 
can to shave whatever time that--time off the review that we 
can.
    Mr. Johnson. OK. I will look forward to working with you on 
that.
    Acting Assistant Secretary of Nuclear Energy Mr. McGinnis, 
as noted in the 2018 Nuclear Posture Review, the U.S. has no 
ability to enrich uranium with domestic technology for either 
national security or commercial purposes. What steps is DOE 
taking to restore domestic enrichment capability for our 
Nation?
    Mr. McGinnis. Thank you very much. Very important question. 
And my colleague Mr. Atkins can talk to the national security 
side, which is a very, very important driver for looking at 
reconstituting or establishing enrichment capacity for our 
country.
    From a nuclear energy perspective, I can tell you that the 
issue of whether or not we--there should be other actions taken 
to support reestablishing American-owned commercial enrichment, 
those issues are also being looked at. It is part and parcel of 
the nuclear policy review that is being conducted as well right 
now.
    But I do think you might find it useful to hear, on the 
national security side, what is driving the examination of 
possible enrichment capacity or planned enrichment capacity for 
national security reasons.
    Mr. Johnson. Mr. Atkins.
    Mr. Atkins. This really comes back to the requirement for 
tritium production for the national defense needs. Really, 
there is no commercial alternative at this point, given that, 
one, there is no commercial enrichment capability domestically, 
and also the prevalence of foreign, the use of foreign 
technology in the field.
    So really the department is, through its Defense Programs 
Office, is committed to pursuing a domestic enrichment 
capability for this requirement. We have a series of 
downblending campaigns that they are ongoing now to meet the 
immediate need. But we will run out of, the projection is we 
will run out of enriched uranium at the 2038 time frame. So we 
have a series of efforts ongoing right now to consider the 
alternatives for technologies to meet such a need.
    Mr. Johnson. Have you looked at any of the studies that DOE 
has already done in the previous administration for what the 
possibilities are?
    Mr. Atkins. I can't speak to that, sir, but I could 
certainly get back to you.
    Mr. Johnson. OK.
    Mr. Atkins. Thank you.
    Mr. Johnson. Mr. Chairman, I yield back.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the gentleman from the Land of Lincoln, Mr. Kinzinger, for 
5 minutes.
    Mr. Kinzinger. Right. Thank you, Mr. Chairman. And thank 
you all for spending time with us and being here.
    My district in Illinois has four nuclear power plants, 
eight reactors, and five, actually, spent fuel storage sites. 
We all know it provides, nuclear power provides reliable, 
carbon-free electricity around the clock, even when it is 
negative 15, like it was at the beginning of the year in 
Illinois. Nuclear power not only provides good jobs and clean 
energy, but also represents an opportunity for continued U.S. 
leadership around the globe. From helping our allies to 
operating their plants safely--to operate their plants safely, 
or having the expertise needed to lead on nonproliferation 
issues, nuclear power is vital to our Nation and to our 
national security.
    I would like to thank my colleague Representative Doyle, 
who truly recognizes the importance of these issues, and has 
worked tirelessly with me on H.R. 1320, the NUKE Act. I truly 
believe this bipartisan bill is a step in the right direction 
to help our existing fleet, and also the next generation of 
nuclear technology.
    We will start with Mr. McGinnis and then Mr. McCree. But, 
first, Mr. McGinnis. The Atomic Energy Act prohibits foreign 
ownership, control, and domination of U.S. commercial nuclear 
interests and nuclear plants. In 2016, the NRC budget hearing 
before this committee, then Chairman Burns said that this 
prohibition is something that is worth taking a look at. The 
provision in my bill would do just that by having the GAO 
report on the feasibility and implications of repealing this 
provision.
    So, Mr. McGinnis, since the Atomic Energy Act was signed 
into law the U.S. Government has established processes to 
review national security interests in key sectors, such as the 
Committee on Foreign Investment in the United States. Would it 
make sense for Congress to consider alternative policies to 
review foreign investment in our nuclear facilities?
    Mr. McGinnis. Thank you very much. Certainly, the CFIUS 
process you talked about is extremely important. We greatly 
care and we very closely watch and monitor foreign investments 
in nuclear generating assets and companies.
    With regards to whether or not there should be additional 
actions taken, I would have to get back with you on that.
    Mr. Kinzinger. But is it worth taking a look at?
    Mr. McGinnis. I will certainly get back with you and offer 
you any suggestions on that.
    Mr. Kinzinger. So you can't tell me if it is worth taking a 
look at? That is all I am asking.
    Mr. McGinnis. Certainly worth--we welcome Congress' strong 
monitoring of the situation----
    Mr. Kinzinger. Right.
    Mr. McGinnis [continuing]. In supporting a robust nuclear 
industry.
    Mr. Kinzinger. I got it. Good work.
    Mr. McCree, in an increasingly global market is this 
restriction worth taking a look at? And if so, what do you 
think would be the potential impacts?
    Mr. McCree. Congressman, thank you for your question. I 
would offer that the Commission has not taken a position on the 
proposed legislation and I, so I would not--it would be 
inappropriate for me to speak for the Commission.
    Mr. Kinzinger. All right. Another provision in H.R. 1320 
requests GAO study the impact of eliminating what is known as a 
mandatory hearing for uncontested licensing procedures. 
Removing this requirement would allow the Commission, if no 
affected person requests a hearing, to issue a construction 
permit and operating license, or an amendment to those permits 
and licenses without holding a hearing. The NRC has previously 
informed Congress that it believes amending the Atomic Energy 
Act to eliminate the mandatory uncontested hearing on combined 
license and early site permitting applications could enhance 
the efficiency of NRC operations.
    Mr. McCree, if this requirement were removed, it is my 
understanding that the Commission would be required to provide 
public notice of the opportunity to request a hearing. Is that 
correct?
    Mr. McCree. Congressman, I believe you are quoting 
correctly from previous testimony by members of the Commission. 
So I would acknowledge that.
    I am not aware of any Commission request for similar 
legislation or similar elimination of the mandatory hearing 
recently, however. So I would again defer to the Commission on 
that.
    Mr. Kinzinger. OK. In the licensing review process, what 
are the public comment opportunities beside the mandatory 
hearing? Can you elaborate on these?
    Mr. McCree. I would need to get back to you for the record 
on that.
    Mr. Kinzinger. I hope you do.
    Well, that was quick, I guess, Mr. Chairman. So 52 seconds 
I yield back.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon a fellow Texan, Mr. Flores, for 5 minutes.
    Mr. Flores. Well, thank you, Mr. Chairman. And I appreciate 
the panel for today's informative discussion.
    I believe there is great potential when we look at the 
opportunities for small modular reactors, and also with 
innovative next gen designs that have been developed thus far. 
And am excited about what can come beyond that.
    There are a bunch of challenges in front of us that need to 
be addressed before we--in order to provide a successful 
pathway for these new technologies to come to fruition. One 
issue in particular relates to the availability of what is 
known as high-assay, low-enriched uranium. This specific 
material, uranium, enriched at higher levels than what is 
available in the current commercial market, may offer more 
flexibility and more efficient electricity generation than what 
we have available today.
    There is a recent industry survey of 16 leading U.S. 
advanced reactor technology developers, found that the lack of 
access to high-assay LEU ranks at the top of policy concerns 
that require resolution to move forward with these projects. 
Just a few weeks ago in front of this subcommittee, DOE Under 
Secretary Menezes confirmed DOE's interest in addressing this 
concern.
    So my question is to you, Mr. McGinnis. Are you familiar 
with this barrier to advanced nuclear innovators?
    Mr. McGinnis. Thank you, Congressman. Yes, I am.
    Mr. Flores. Can you offer any thoughts about how this can 
be addressed?
    Mr. McGinnis. I can tell you from the nuclear energy sector 
in particular, those who are working to develop our Nation's 
next class of advanced reactors, many of those reactor designs 
will require higher levels of enrichment, as you have 
indicated, high-assay LEU, which is another way of saying 16, 
17, or 18 percent enrichment as opposed to the 4.5 or so 
percent that our fleet uses now.
    We do believe it is a very important issue. It is a supply 
chain issue. It is an energy security supply issue. And it 
extends to also the NNSA's space as well as our advanced 
reactor deployment plans.
    Mr. Flores. In light of that, I assume that the NRC is 
looking at the policy challenges associated with the material. 
Is that correct, Mr. McCree?
    Mr. McCree. Mr. Flores, thank you for your question. And at 
this point we don't see what would represent policy issues. 
There are a number of technical issues. Mr. McGinnis mentioned 
some of them. It even goes to the criticality analyses, 
neutronics that would be represented in the core. From a 
transport packaging perspective there are issues. And even in 
the fuel cycle, you know, what enrichment capabilities exist. 
Would there be a need for new facilities or an amendment to a 
license at an existing facility, and et cetera?
    So there are a number of issues like that associated with 
the supply chain that would need to be addressed. But that is 
more than a technical issue rather than a policy issue.
    Mr. Flores. Mr. McGinnis, would a DOE program to manage 
this material similar to how DOE provides fuel for research 
reactors be an option?
    Mr. McGinnis. To be clear on your question, you are 
referring to high-assay LEU with research reactors?
    Mr. Flores. Yes, that is correct.
    Mr. McGinnis. Yes, that is very important supply chain 
issue as well.
    Mr. Flores. Would that be an option to use for these 
advanced generation nuclear reactors?
    Mr. McGinnis. Well, I would rephrase it to say, from my 
view research reactors, a number of them, have high enrichment 
fuel requirements as well.
    Mr. Flores. Right.
    Mr. McGinnis. Higher level. And they will need a supply 
chain. There is no commercially available higher enriched level 
available now. And we will have to come to terms with that.
    Mr. Flores. OK. To the extent that Congress wants to take a 
look at this, I am assuming your office would be willing to 
work with us to try to develop policy solutions?
    Mr. McGinnis. Yes, certainly.
    Mr. Flores. Mr. Owendoff, I have 58 seconds left. West 
Valley Demonstration Project was a commercial demonstration 
reprocessing technology, but it ceased operation about 40 years 
ago. The department is still overseeing the decommissioning and 
decontamination work at the site; is that correct?
    Mr. Owendoff. Yes, it is, Congressman.
    Mr. Flores. The last time that the project was authorized 
was in 1982. Would DOE support legislation to reauthorize this 
project?
    Mr. Owendoff. I think we have provided technical advice in 
the past. And we will continue to work with you, Congressman.
    Mr. Flores. What other issues would need to be addressed if 
we--at West, at the West Valley site?
    Mr. Owendoff. I think it is a complex issue. So if we can, 
for the record, work with your office, sir.
    Mr. Flores. OK. You can do that supplementally after the 
hearing.
    Mr. Owendoff. Yes, sir.
    Mr. Flores. OK, thank you very much. I yield back.
    Mr. Owendoff. Yes, sir.
    Mr. Olson. The gentleman yields back. The Chair sees no 
Member seek to ask questions, so on behalf of the committee, 
thank you to the first panel. I will remind our Members they 
have 10 legislative days to submit questions for the record 
and, to all the panelists, you have 10 days to reply to those 
questions.
    Thank you, thank you, thank you. You are dismissed.
    Panel two, you are up. And be advised that a vote is coming 
up sometime next 45 minutes, so please be expeditious. Thank 
you.
    You all have had your water. Are you ready to rock and 
roll? OK, the second panel is starting.
    Our first speaker with an opening 5-minute statement will 
be Bill Ostendorff. He has been on the first panel, but he is 
also Distinguished Visiting Professor of National Security at 
the United States Naval Academy. Go Navy. You have 5 minutes, 
sir.

  STATEMENTS OF WILLIAM C. OSTENDORFF, DISTINGUISHED VISITING 
  PROFESSOR OF NATIONAL SECURITY STUDIES, U.S. NAVAL ACADEMY; 
MARK PETERS, PH.D., DIRECTOR, IDAHO NATIONAL LABORATORY; MARIA 
  G. KORSNICK, PRESIDENT AND CHIEF EXECUTIVE OFFICER, NUCLEAR 
ENERGY INSTITUTE; DAVID C. TRIMBLE, DIRECTOR, NATURAL RESOURCES 
 AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE; AND ASHLEY 
 E. FINAN, PH.D., POLICY DIRECTOR, NUCLEAR INNOVATION ALLIANCE

               STATEMENT OF WILLIAM C. OSTENDORFF

    Mr. Ostendorff. Thank you, Mr. Chairman. I must acknowledge 
my friend Congressman Shimkus here, and congratulate him on the 
Army-Navy victory back in December. I would be remiss in not 
doing so.
    I thank you for the chance to be here today. While I an 
currently a professor of National Security Studies at the Naval 
Academy I am not here on behalf of the Navy. Rather, I am here 
to speak of my experience in submarines, in the nuclear weapons 
programs and the NRC.
    I would like to offer a few thoughts on the national 
security imperatives of what I call the U.S. nuclear 
enterprise. By nuclear enterprise, I simply refer to three 
significant programs:
    First, the Nation's nuclear weapons program, the Manhattan 
Project; second, the Navy's nuclear propulsion program under 
Naval Reactors; and third, the Nation's commercial nuclear 
industry.
    Let me share my own experience in all three legs of the 
enterprise, spanning four decades.
    After graduating from the Naval Academy, I entered Admiral 
Rickover's Nuclear Navy. I embarked upon a naval career that 
spanned 26 years, with 16 years of sea duty on six submarines. 
I carried both strategic and tactical nuclear weapons on three 
of these submarines. I was also privileged to command a Los 
Angeles class attack submarine, the USS Norfolk, for 3 years, 
during which time we drove that submarine 100,000 miles. That 
submarine and its reactor plant were engineering marvels, and 
the crews professional and highly motivated.
    After retiring from the Navy and working for the House 
Armed Services Committee, I was confirmed by the Senate to 
serve as Principal Deputy Administrator at NNSA, overseeing the 
30,000-plus people in the nuclear weapons complex. Later, in 
2010, I was confirmed to serve as a Commissioner of the NRC, 
where I served from 2010 to 2016.
    My 40 years in submarines, nuclear weapons, and commercial 
reactors has ingrained in me the vital role of human capital in 
the nuclear enterprise.
    Nuclear is different. This work is hard, it is challenging, 
it requires the best trained engineers and scientists. But 
without that nuclear-related work to actually perform, those 
unique human capabilities atrophy at an alarming speed. And as 
that reactor technology work decreases in the United States, so 
does the ability and opportunity for the United States to 
influence nuclear safety and security worldwide.
    Are there national security consequences to a declining 
commercial nuclear industry? Absolutely.
    Let us first look domestically.
    A prerequisite for national security is energy security. 
Nuclear energy provides carbon-free, reliable baseload 
generation. It would be unwise for our Federal Government to 
sit by and watch the current industry decline continue, for at 
some point that decline becomes irreversible. It is naive to 
think we could revive the nuclear industry at some future point 
if it lies dormant for even just a generation.
    Economically, the nuclear industry provides well-paying 
jobs, supporting local communities across the country.
    Let's look at human capital for a brief moment. Many of the 
current nuclear plant operators at commercial plants started 
out in the Nuclear Navy. Will the prospects of reduced 
opportunity for employment in the commercial industry have a 
negative impact no the Nuclear Navy's ability to recruit? I do 
not have any data to share, but I think the answer may be yes.
    What about the impact of a declining industry on 
undergraduate and graduate programs in nuclear engineering?
    What about the ongoing partnerships between community 
colleges and the nuclear plants that hire their graduates with 
associates degrees?
    I now turn to the impacts in the international arena. The 
ability of the U.S. to lead in nuclear safety, security, and 
nonproliferation efforts is significantly lessened as 
commercial activity erodes. To engage internationally, the 
United States must participate. I saw this firsthand as a 
Commissioner in the aftermath of the 2011 reactor accident at 
Fukushima in Japan. The U.S. was a key leader worldwide in 
post-accident nuclear safety regulation.
    I also saw this when speaking on best practices for both 
physical and cybersecurity for the IAEA in Vienna in 2015. Many 
countries look to the U.S. for regulatory lessons learned--
whether safety or security--because of the reputation and size 
of our program.
    When I was sworn in as a Commissioner at the NRC in 2010, 
the New Reactor staff was reviewing license applications for 26 
reactors. Today, that NRC staff is reviewing just two designs. 
While construction of the two AP 1000 units is in progress at 
the Vogtle site, no others are being built in the U.S. today.
    As our nuclear industry shrinks, our nuclear voice is not 
as loud as it once was internationally.
    Who fills that void? Russia currently dominates the export 
market for nuclear fuel and reactor technology. China is 
embarked on an aggressive domestic nuclear construction program 
and is poised to move out internationally.
    It would be a natural development for Russia and China to 
control the nuclear export market and to aspire to key 
leadership roles at the IAEA and other international nuclear 
forums.
    Finally, the traditional U.S. leadership role in nuclear 
nonproliferation is clearly threatened by this alarming trend.
    In closing, it is a fact that our nuclear industry is in 
decline. There are clear, significant national security 
consequences at stake. This matter is urgent. I applaud the 
committee for bringing attention to this vitally important 
topic.
    I look forward to your questions.
    [The statement of Mr. Ostendorff follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Olson. Thank you, Mr. Ostendorff. And thank you so much 
for your service in our Navy. And people in the audience should 
know he was a driver. They are boats, not ships. I flew a plane 
that hunted them, a P-3 Orion. We could find those Soviets, but 
could never find them unless they wanted to let us find them. 
So thank you for that as well.
    The next panelist is Dr. Peters from the Idaho National 
Laboratory. Dr. Peters, you have 5 minutes.

                    STATEMENT OF MARK PETERS

    Dr. Peters. Thank you, Mr. Chairman. I want to thank you, 
Chairman Upton, and Ranking Member Rush, for the opportunity to 
be here with you today. And also thank all the members of the 
committee for joining us.
    My name is Mark Peters, and I am the Director of Idaho 
National Laboratory. INL is the Nation's lead nuclear energy 
research and development laboratory, the place where 52 
original nuclear reactors were designed, constructed, and 
operated.
    It is our mission to provide the research, development, and 
demonstration foundation to extend the lives of the current 
operating fleet, develop the next generation of nuclear 
reactors, and provide integrated nuclear fuel cycle solutions.
    As we have already heard, nuclear energy is a vital 
component of America's energy system. And, in particular, 
advanced nuclear energy technologies provide an opportunity for 
the U.S. to meet future electricity demands while benefitting 
our economy, our environment, and our national security.
    The United States remains in a position of strength. 
However, the future is not guaranteed. We are at a critical 
junction, a turning point as I like to say. Decisions made 
today will determine if the U.S. continues to lead the world in 
civil nuclear energy, innovation, and production.
    I remain optimistic about the future of nuclear energy 
because of the science and innovation coming out of our 
national laboratories, universities, and the private sector. We 
have the finest research, development, and demonstration 
facilities, the most developed capabilities, and the best 
minds.
    I am also optimistic because of our history. America has 
always risen to the challenge. Before us is a grand opportunity 
to maintain and enhance our leadership going forward, while 
ensuring U.S. nonproliferation and safety approaches continue 
to be the world's standards.
    When the U.S. domestic nuclear energy industry languishes, 
our international leadership role suffers. Russia and China are 
aggressively expanding their nuclear capabilities. These 
nations, with their state-sponsored nuclear industries, enjoy 
tremendous advantages over the private sector in the U.S., and 
understand the decades-long influence that results from 
building a nuclear power plant in another country.
    We also should not forget the benefits that U.S. nuclear 
energy brings to economic development. A healthy domestic 
industry allows for a robust export market and international 
influence. So national security and economic opportunity are 
powerful motivators to maintain and eventually build upon our 
advantages. So, how do we accomplish this?
    First, by making sure we sustain our current nuclear 
reactor fleet. INL is working with utilities to modernize 
control rooms and work to provide the basis to extend the life 
of power plants beyond 60 years. We have transitioned the 
Light-Water Reactor Sustainability Program from one concerned 
primarily with licensing to include helping utilities reduce 
operating costs.
    But if we are to maintain that advantage, we must set up 
private-public partnerships to develop and deploy the next 
generation of nuclear reactors.
    Our national labs are ideal places to do the research and 
development and then actually partner with industry to 
demonstrate these new technologies. Our current example is the 
emergence of light-water small modular reactors, as we have 
already heard multiple times this morning. It is great news for 
the American nuclear energy industry, and the Nation as a 
whole, that the NuScale small modular reactor continues to work 
its way through the NRC process.
    We have been involved at INL with NuScale from the 
beginning, providing technical support and guidance. And as you 
heard this morning, NuScale's first SMR is planned for the INL 
Site, in partnership with Utah Associated Municipal Power 
Systems' utility consortium in the West. We will also be 
working with them on the Joint Use Modular Plant program that 
would allow the laboratory to actually use the first few 
modules in the 2026 time frame to actually develop and 
demonstrate advanced energy system processes, in collaboration 
with NuScale and UAMPS.
    As you have already heard, SMRs are a game changer. They 
are smaller, safer, cheaper to build, easier to license, and a 
window into a lucrative and an influential export market to go 
forward.
    We are also working on advanced reactor designs, including 
coolants beyond light water reactor, cooled reactors. And as 
mentioned this morning, this will allow us to not only produce 
electricity, but also penetrate other markets with nuclear 
processes, for example, the manufacturing and transportation 
sector.
    We are also excited to be working with the private sector 
to develop and demonstrate small, very small reactors, 
microreactor technologies. I think they have the possibilities 
of powering remote communities and military bases around the 
world.
    Key to all this is maintaining the research infrastructure 
of places like Idaho National Laboratory, Argonne National 
Laboratory, and Oak Ridge National Laboratory going forward, 
like the Advanced Test Reactor, like the Transient Test 
Reactor, and like the Materials and Fuels Complex at INL.
    We are also embarking on a development, design and 
deployment of a Versatile Fast Neutron Source that we would 
like to have in place within a decade that would further our 
U.S. leadership and provide that important infrastructure.
    So, let us remain the world leader and a tone setter by 
developing a sound civil nuclear energy policy. I put to you 
that our national labs and universities give us a tremendous 
technical advantage over our competitors across the globe. Let 
us approach the great opportunity with urgency, and a 
collective desire to achieve results and excitement to attract 
the net generation of nuclear scientists and engineers to our 
field. For the good of our economy, our environment, and our 
national security, let us embrace this challenge.
    I am happy to answer questions.
    [The statement of Dr. Peters follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Olson. Thank you, Dr. Peters.
    Our next speaker is Ms. Maria Korsnick. And she is the 
President and CEO of the Nuclear Energy Institute. Ma'am, you 
have 5 minutes for your opening statement.

                 STATEMENT OF MARIA G. KORSNICK

    Ms. Korsnick. I appreciate the opportunity to testify 
before you to highlight the state of America's nuclear industry 
today
    Nuclear power runs 24 hours a day, 7 days a week; provides 
almost 20 percent of America's electricity. These plants are 
hardened facilities that are protected from physical and cyber 
threats, helping to ensure the resiliency of our electricity 
system in the face of potential disruptions.
    The 99 reactors that we have in our nuclear fleet today 
represent 60 percent of the clean electricity in our country. 
Our Nation's nuclear industry, however, is at a crossroads, and 
we urgently need tangible signals from Congress that it values 
nuclear power. And this is not a partisan issue. I see Members 
on both sides of the dias who either have lost nuclear plants 
in their States and local communities, or may soon experience 
this unfortunate event.
    And you are not alone. America is in danger of losing 
dozens of her nuclear reactors in the next 10 years. To put 
this in perspective, units that have recently closed, and those 
who have announced specific plans to close would produce 90 
million megawatt hours of clean energy. That is enough 
electricity to power 8.4 million homes each year. And this is a 
conservative estimate, as there are additional plants who have 
not provided a firm date but are clearly at risk, like the Ohio 
plants.
    But it doesn't have to be this way. Nuclear power's 
contributions to this country deserve to be recognized. And 
this committee has the power to make that reality. A single 
nuclear plant creates hundreds of jobs and millions of dollars 
in revenue for rural towns and cities. And it produced 
unmatched amounts of carbon-free clean air electricity. And, as 
recently illustrated, it has the ability to withstand extreme 
weather events and continue to produce low-cost electricity, a 
major factor in ensuring the resiliency of our grid.
    And for these reasons and more, we need to value nuclear 
power and work together to find a way to keep these essential 
plants online.
    There are really four areas that need attention.
    First is fair compensation.
    Second is the fuel cycle. And that means the front end, the 
mining and enrichment piece; and the back end, a workable used 
fuel program.
    Third is reforming the NRC. That involves both the fee 
structure and streamlining licensing of new technologies.
    And fourth is exporting our technology. We need to level 
the playing field for our nuclear firms to compete against 
foreign governments.
    My written testimony includes a number of legislative 
actions that would advance the prospects for nuclear energy to 
meet our Nation's needs. I commend Chairman Upton for hosting a 
series of hearings on the electricity markets. And I cannot 
stress enough the importance of ensuring appropriate market 
compensation for the attributes of nuclear power. Market 
reforms are essential to the viability of the U.S. fleet. 
Simply put, we need your help to ensure that FERC and its 
associated RTOs and ISOs fully value the benefits provided by 
our plants.
    I would also encourage the committee to consider innovative 
approaches, such as making it easier for Federal agencies to 
enter into power purchase agreements with new and existing 
reactors.
    I thank this committee for taking action on used fuel 
legislation. And I do hope we can work to ensure House passage 
of that legislation in the near future, and another bipartisan 
piece of legislation led by Congressmen Kinzinger and Doyle to 
address the much-needed NRC fee reform. We do appreciate these 
efforts, and hope we can get them to the President's desk this 
year.
    There is exciting innovation in the nuclear industry. It is 
happening across the company from reactor startups to the 
cutting edge research being conducted at our national labs, as 
you have heard. And this gives me hope. But if America, the 
country with the most reactors in the world, sits back and lets 
our fleet atrophy, that important innovation will die off as 
well. And we cannot let that happen.
    Right now, of the 58 reactors under construction worldwide, 
only two are being built here in the United States. And even 
those projects are in jeopardy pending congressional action on 
the Nuclear Production Tax Credit. Comparatively, Russia is 
building seven reactors, and China 19. We are in imminent 
danger of ceding our global leadership in technology, that we 
invented, to the Russians and the Chinese.
    Failure to lead the next wave of global nuclear 
construction means a significantly diminished ability to 
promote U.S. safety standards, nonproliferation behaviors, and 
security norms around the world. Simply put, U.S. influence 
grows when we have a strong civil nuclear industry.
    Nuclear power has always answered the call of this Nation. 
It has powered our homes, our businesses, and our navy. It is 
allowing for space exploration and visits to Mars. It has 
helped fund schools and essential services in local communities 
across this country. Today the nuclear industry is here to ask 
America's leaders to answer our call. Please work with us to 
make sure this American technology does not become a ghost of 
our past. Your help and your active support is urgently needed.
    Thank you. And I look forward to answering your questions.
    [The statement of Ms. Korsnick follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Mr. Olson. Thank you, Ms. Korsnick.
    Mr. Trimble is recognized for 5 minutes as well. He is the 
Natural Resources and Environment Director at the Government 
Accountability Office. Five minutes, sir. Thank you.

                 STATEMENT OF DAVID C. TRIMBLE

    Mr. Trimble. Thank you. Chairman Olson, Ranking Member 
Rush, and members of the subcommittee, the critical missions of 
the Department of Energy depend on the extraordinary 
capabilities found at the department and its network of 
laboratories and production facilities across the country. 
These capabilities depend on the large and unique capital 
assets found at these facilities, but also the expertise of the 
workforce that is a product of years of on-the-job training and 
experience that exists nowhere else in the world.
    These capabilities serve all of DOE missions, including 
weapons, cleanup, nonproliferation, energy, and science. To 
successfully execute these missions, DOE must maintain, 
rebuild, and renew both its physical and human capital. DOE's 
efforts, however, are hindered by longstanding management 
challenges that have been well documented in reports by Mies-
Augustine, CRENEL, the Academies, and GAO.
    The growing fiscal and budgetary pressures facing the 
Government mean that DOE can no longer afford to poorly manage 
these billion-dollar programs.
    My testimony today will highlight some of the challenges 
facing DOE, including the affordability of NNSA's nuclear 
modernization programs, the growing costs of DOE's 
environmental liabilities, management challenges in the 
nonproliferation program, and DOE's efforts to improve its 
management of programs, projects, and contracts.
    Regarding weapons, NNSA faces challenges with the 
affordability of its nuclear modernization programs. Our review 
of the fiscal year 2017 modernization plan found misalignment 
between NNSA's plan and projected budgetary resources, which 
could make it difficult for NNSA to afford its planned 
portfolio of modernization programs. We found that NNSA's 
estimates of program costs exceeded the projected budgetary 
resources included in the President's planned near and long-
term modernization budgets.
    Regarding environmental cleanup, DOE's growing 
environmental liabilities demonstrate the need for DOE to 
improve its oversight and management of its cleanup mission. In 
2017, we added the Federal Government's environmental 
liabilities to our high-risk list. DOE is responsible for about 
370 of the 450 billion-dollar total, and DOE's total cleanup 
liability has been growing.
    Over a recent 6-year period, DNN spent $35 billion on 
cleanup, while its liabilities grew by $90 billion. I should 
also note that these liability estimates do not include all of 
DOE's future cleanup responsibilities.
    Our recent works have identified opportunities where DOE 
may be able to save tens of billions of dollars by taking risk-
informed approach to treating a portion of this Low Activity 
Waste at its Hanford site.
    Regarding nonproliferation, DNN has not consistently used 
program management leading practices. We found that DNN's 
policies do not require programs that establish life cycle 
estimates or manage their performance against schedule and 
across baselines. In addition, we found that DNN's R&D results 
were not being tracked consistently to help evaluate the 
success of that program.
    To successfully meet the challenges facing it, DOE needs to 
improve its management of its programs, projects, and 
contracts, areas that have been on GAO's high-risk list for 
almost three decades. In recent years, DOE has taken some 
important steps, including requiring the development of cost 
estimates in accordance with best practices; creating new 
oversight structures; and ensuring that major projects, 
designs, and technologies are sufficiently matured before 
construction.
    However, significant challenges remain:
    First, DOE still lacks reliable, enterprise-wide cost 
information. Without this information, meaningful cost analyses 
across programs, contractors, and sites are not possible. 
Reliable detailed data are also needed for DOE to manage its 
risk of fraud.
    Second, DOE has not always followed its own requirements. 
In 2015, we reported that DOE initiated a new project, Low 
Activity Waste Pretreatment System, to accelerate waste 
treatment at Hanford. We found this project was selected 
without full consideration of alternatives, and DOE's cost 
estimates were not reliable. Additionally, DOE has not 
consistently applied these recent reforms to its largest 
cleanup project at the Hanford site.
    Third, regarding program management, we found in 2017 that 
NNSA had established program management requirements for 
commodities like uranium, plutonium, and tritium. However, 
these requirements are not being met due to staff shortages.
    In closing, let me note that we have several ongoing 
engagements for this committee examining these management 
challenges. And we strongly support the oversight efforts of 
the committee.
    Thank you. I would be happy to answer any questions.
    [The statement of Mr. Trimble follows:]
  

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    
    Mr. Olson. Thank you, Mr. Trimble.
    Our final opening statements if from Dr. Ashley Finan from 
the Nuclear Innovation Alliance. She is the Policy Director 
there. Five minutes, ma'am, and welcome.

                  STATEMENT OF ASHLEY E. FINAN

    Dr. Finan. Thank you, Chairman Olson, Ranking Member Rush, 
and distinguished members of this subcommittee. Thank you for 
holding this hearing and for giving me the opportunity to 
testify. I am honored to be here today.
    I am Ashley Finan, Policy Director for the Nuclear 
Innovation Alliance. The NIA is a nonprofit organization 
dedicated to supporting entrepreneurialism and accelerated 
innovation and commercialization of advanced nuclear energy.
    The world will increase its energy demand by 40 percent or 
more by 2050, driven by an emerging middle class in the 
developing work, and the need to bring electricity to 1.2 
billion people who lack it today. At the same time, it is well 
understood that clean energy is essential to human health, and 
many analyses point to the pressing need to transition to an 
emissions-free energy system.
    Nuclear energy will play a vital role in a future energy 
supply that addresses these priorities. The question for us is: 
will the United States be a part of that?
    In the U.S. and elsewhere, start-up companies are 
pioneering advanced nuclear designs that offer opportunities 
for increased safety and affordability, enhanced 
nonproliferation attributes, and a reduction in nuclear waste. 
These designs can revolutionize the nuclear industry and 
revitalize U.S. exports with products that take advantage of 
the latest manufacturing and computing technology, that are 
competitive in markets across the globe, and that exceed the 
expectations of customers and the public.
    But the transition from design to commercialization and 
deployment has been hampered by significant underinvestment in 
research, development, and demonstration, by a slow and 
underprepared licensing process, and by a long and lengthening 
export control process.
    The Government plays several roles in the commercialization 
and expert of a nuclear energy technology. It is an R&D 
collaborator, a demonstration partner, a regulator, and a 
promoter. In turn, as with any new technology, the Nation 
profits from the economic impact of the product and the exports 
and jobs it creates.
    Unique to nuclear energy, though, are several other 
benefits: including centurylong strategic trade relationships 
with customer countries; reliable clean energy to fuel domestic 
and global prosperity; and stronger U.S. influence over global 
nuclear safety, security, and nonproliferation standards.
    We have not seen a booming U.S. nuclear export business in 
decades. Not least among many causes is the lack of a 
compelling nuclear energy product from the private sector. The 
market demands plants that are more resilient and flexible, 
lower impact, and simpler and cheaper to build and to operate. 
As I touched on earlier, companies are answering that call, and 
they are innovating. They are finding a U.S. Government that is 
curious and interested, but not wholly invested, and not always 
ready to innovate.
    Meanwhile, Russia is building a fast test reactor to 
replace its retiring predecessor, as well as a lead fast 
reactor to join its two operating sodium reactors. China is 
simultaneously running several major R&D programs, and its 
commercial high temperature gas reactor will be connected to 
the grid this year. India's prototype fast reactor will also 
enter operation this year.
    I don't want to be alarmist. This does not need to devolve 
into a geopolitical race. But it is a harsh reality of business 
that if we are last to market, we are likely to become 
irrelevant. And it is a harsh reality of global nuclear 
security that the countries supplying nuclear power have the 
strongest hand in influencing how nuclear programs are 
protected from misuse and how safely those programs are run.
    Export application timelines through DOE's Part 810 
specific authorization process have slowed from 150 days on 
average to over 400 days between 2000 and 2014, with some 
decisions taking over 900 days. This authorization is often 
required very early in the marketing process to allow companies 
to share information with potential customers. Long processing 
times make it difficult for U.S. companies to compete.
    The NIA has proposed actions to improve these timelines in 
its ``Part 810 Reform'' report, including changes to DOE's 
processing structure. We need to address this issue.
    Similarly, NRC licensing of advanced reactor technology is 
fraught with major challenges, as described in detail in my 
written testimony. The NRC has begun addressing these 
challenges, but they have done so with extraordinarily limited 
resources. This work needs to be pursued with dedicated funding 
and with urgency.
    To secure a leadership position in the global nuclear 
market, the U.S. needs to move its designs from development to 
demonstration and deployment. The NIA made recommendations in 
its ``Leading on SMRs'' report: Congress and the administration 
should expand support for the development of first-of-a-kind 
demonstration projects, and it should explore opportunities for 
advanced nuclear reactors to provide reliable power to Federal 
facilities.
    The private sector cannot do this alone. And it is time for 
Government to move from being interested to being invested. It 
is time for Government to act with urgency and to support 
innovation earnestly. These efforts will help bring our 
homegrown advanced reactor technologies to market more quickly, 
so that these transformative technologies can leapfrog 
international competition.
    Thank you for this opportunity to testify. I would be 
pleased to respond to any questions you might have, today or in 
the future.
    [The statement of Dr. Finan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    
    Mr. Olson. Thank you, Dr. Finan. Now is the fun time, 
Members' questions. And the chairman gives himself 5 minutes 
for a round of questions.
    The first question is to you, Ms. Korsnick. You mention in 
your opening statement the work other companies are doing to 
deploy nuclear reactors. And I want to translate that to Texan. 
You said we are getting whipped, I think. We are being whipped 
by these guys overseas.
    Part of their deployment overseas is by cost and Government 
support, but they have regulatory hurdles as well that are part 
of their equation. My question is, can you talk about what they 
do that is different than what we do? Are they big differences? 
Are they safer, the pros, the cons? How can we catch up pretty 
quickly, because we are losing the race right now.
    Ms. Korsnick. Yes. So, as we have talked here, the 
competition is significantly in Russia and China. And I would 
say they look at their nuclear fleet in a much more strategic 
way. They decide quite up front that if they are involved in 
your energy they have some amount of control of your future.
    So, a Russia person knocking on your door would say, ``I am 
going to build you a reactor. I am going to operate your 
reactor. And I am going to take your used fuel.''
    It is not the same business proposition, quite frankly, 
that we can make.
    On the positive side for us, we have very strong 
technology, very good technology, and we still have countries 
that are very interested to do business with the United States. 
But we need to be more aggressive. We have got to level the 
playing field. We need to make it much more easy for our 
businesses to do business in the nuclear sector.
    Mr. Olson. I have a question 2. Much of the conversation on 
nuclear energy is focused on commercial reactors for power, 
generating electricity. However, those reactors are just one 
piece of the entire fuel cycle. You have processes like mining, 
conversion, enrichment. They are all critical to have a robust 
nuclear industry.
    We also forget about the workers. Comments were mentioned 
during the first panel, the South Texas Power Plant right there 
in Bay City is having a crisis of workers because opened up in 
1979, those workers have been there since then, they are now 
retiring. Luckily, they have approached Wharton County Junior 
College, they have a campus down there, to train the next 
succession of workers, because without them that place goes 
dark.
    And so, what is the state of our industry across the 
broader fuel cycle, what changes do we need dramatically now, 
and what to work on in the future to get this thing, this ship, 
righted quickly?
    Ms. Korsnick. So, if you look at the worker picture, I 
would say currently the picture is not too bad. The challenge 
that we have is if we don't continue to invest in this 
industry--and we heard from speakers earlier--that people don't 
continue to study nuclear engineering. They don't continue to 
go into these programs.
    But over the last several years the nuclear industry has 
paired with local community colleges, et cetera, and put 
programs in place to keep that pipeline of talent, if you will, 
strong. Those programs have paid off. And I would say currently 
the pipeline is healthy. But that is because the current state, 
if you will, there's some view that there are jobs to be held.
    As they watch these plants close, that picture changes very 
quickly.
    Mr. Olson. Next question is for you, Dr. Peters. I 
understand that DOE, as you mentioned, has entered into a site 
use permit for the INL and NuScale to construct the first SMR. 
Your testimony, though, is that INL has partnered with NuScale 
since the outset in their efforts to build this new design. 
Based on that experience, what policies should be considered in 
the future to make what you are doing go all across the 
country?
    Dr. Peters. Thank you for your question, Mr. Chairman. So, 
so we have partnered with them from the beginning. And that 
started with actually a DOE grant, a few decades ago actually. 
So it has been a long run.
    But the partnership that we have with them now, it is there 
is a permit that, an MOU effectively, that says, here, what it 
looks like to use our site. But there is also strong 
collaborations with them vis-a-vis potential use of some of the 
modules for, for research use, and also power purchase 
agreements between them and the Government. So I think those 
sorts of approaches can be used with other reactor vendors, so 
things like power purchase agreements, like using, using them 
for research.
    And using the site. We have built 52 reactors on our site, 
so there is plenty of space. We can actually demonstrate more. 
So I think you have just got to take what we have already done 
and transfer that over to other reactor vendors.
    I should also tell you--I can't get into specifics here, 
partly because of NDAs and whatnot--but there are other 
companies that are calling us now and saying, hey, with this 
NuScale-UAMPS deal can we actually talk to you about how we 
might be able to do that on your site as well?
    So there is a lot of promise there. I would emphasize that 
the innovation and the advanced reactor space in the U.S. could 
put us back, could put us back in the lead if we play it right.
    Mr. Olson. And, sir, that is music to my ears.
    My time has expired. The Chair now calls upon the ranking 
member of the subcommittee, Mr. Rush, for 5 minutes.
    Mr. Rush. Well, thank you, Mr. Chairman.
    Ms. Korsnick, I have said it on several occasions that I 
believe that we must establish policies that place the light on 
our nuclear fleet, the sources of safe, reliable, low-carbon 
energy. However, I did not agree with the DOE NOFA because it 
appeared to be nonhastening and with little transparency or 
dissertation for how that outcome was decided.
    And second, during our Powering America series of hearings 
we heard that fuel diversity is as important to reliability as 
any other characteristic.
    So the question remains how do we get to the point where 
our nuclear fleet is thoroughly and reasonably valued for some 
of these unique attributes but we are not picking winners and 
losers only based on the 90-day storage rule.
    So the question is, Do you support a strictly market-based 
approach wherein the ITOs implement price reform efforts to 
recognize the different contributions of nuclear resources,or 
do you believe that there is a role for Congress in helping to 
enact policy objectives, such as moving toward a low-carbon 
economy that will make the most of the contributions made by 
the Nation's nuclear fleet?
    And I also want to ask for a response from the other 
members of the panel.
    Ms. Korsnick. Thank you. I would say ultimately we do favor 
a market solution. But I would say that that market solution is 
too slow in coming. And so, the challenge that we have is as 
the market is trying to sort this out we are going to see still 
yet several additional plants close.
    And, you know, I would just step back and say at a high 
level, currently, you know, electricity as a commodity, every 
electron is treated equally. Some of those electrons produce 
pollution to produce those; some of those electrons were 
produced in an intermittent fashion; some of those were 
produced from a baseload reliable resource; some produced 
carbon to make them; some produced emissions, some didn't. And 
so, at the end of the day we need a process where the market 
really values how those electrons were produced and not just 
that electrons were thrown onto the grid.
    And this is the process that the market needs to, you know, 
to step through. We do appreciate an all-of-the-above energy 
strategy. But, again, the challenge that we have is the 
market's response has just been too slow in coming.
    Mr. Rush. Any other? Yes, sir.
    Mr. Ostendorff. Congressman Rush, thank you for your 
question. I completely agree with Ms. Korsnick here. And would 
suggest that if under your--in your opening statement this 
morning you talked about all-of-the-above.
    Mr. Rush. Right.
    Mr. Ostendorff. And I am part of that strategy. From my own 
philosophy, you need to recognize what we do to imperil nuclear 
energy as a potential source in the future if we don't support 
it right now.
    Defendants say we need to not just be interested, we need 
to invest. I completely agree with what she just said here. 
This is not something that can wait 10 years and decide the 
Federal Government should invest; it needs to happen now. It is 
not going to get any better with time. And as more plants 
continue to close because of economic issues, I think we might 
face the reality of not having this open as a future option for 
us.
    Mr. Rush. Ms. Finan.
    Dr. Finan. I think that nuclear power is important because 
it can address a wide array of concerns, including but not 
limited to national security, energy security, air emissions, 
and reliability--all of those simultaneously. So it is 
appropriate to value all of those attributes as we think about 
our energy sources.
    And the NIA will be pleased to work with the committee to 
evaluate ways that Congress can help.
    Mr. Rush. Mr. Chairman, I yield back my time.
    Mr. Olson. The gentleman yields back. The chair now calls 
upon the gentleman from Illinois, Mr. Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. And it is good to 
follow my colleague from Illinois.
    Also, I am going to follow up. I am changing my order of 
questions. I want to go to Ms. Korsnick on this whole debate of 
market-based solution too slow.
    Republican conservatives we believe in markets. And we 
believe that--but we also believe that if there is a risk 
profile or uncertainty, that is a cost that is passed on. So in 
my first panel round you heard me talk about the front end of 
the fuel cycle. Of course now I guess the question is, On the 
back end of the fuel cycle, because of Federal Government 
inaction, is there risk and additional cost incurred by the 
nuclear industry in holding, maintaining, storing, litigating 
the back end of the fuel cycle?
    Ms. Korsnick. There is a cost. But I would say it is even 
steeper than, than what perhaps you are suggesting. And I would 
say one of the number one reasons that people question the 
viability of nuclear power is because we do not have a waste 
strategy.
    And so it is not only a cost in operation, it is a 
reputational cost, quite frankly, to the industry at large that 
says we don't understand. It must be really difficult to solve. 
It must be, in fact, technically impossible because, as the 
United States, we haven't solved it in decades.
    And to try to counter that with, well, no, it is not 
technically difficult; no, there is a very technically feasible 
solution; we have just chosen, in fact, not to adopt it; it has 
actually put an albatross around the neck of the nuclear 
industry to, quite frankly, go forward with viable public 
support.
    Mr. Shimkus. Yes, and I am glad you finished that way 
because I would say we do have a strategy. We do have a law. We 
just have failed to implement it. It has really been a 
political failure, not a scientific failure.
    Of course, Mr. Ostendorff and I have had this discussion 
when he appeared before us with the NRC, and it took court 
cases to ring out of the hands of the NRC the safety and 
evaluation report that said long-term storage would be safe for 
a million years, which took a lot longer. I thought it was 
going to take a million years to get that report out.
    But having said that, I want to go to Mr. Ostendorff. And I 
don't want to read the whole, the national security strategy of 
the United States of America, issued a report in December, but 
the basic premise is the Nation's ability to produce needed 
parts, systems help, and secure supply chains, and skilled U.S. 
workforce. That is their concern based upon the national 
strategy.
    In your previous life as a boat captain, is there a 
concern? Is that a valid concern if we lose this expertise?
    Mr. Ostendorff. I would suggest--I will answer this two 
ways, Mr. Shimkus. First, my experience on boats is a long time 
ago. But I can tell you at the end of the Cold War when I had 
taken command of a submarine in 1992, there were 100 attack 
submarines in the U.S. Navy. Today that number is 53. So the 
industry's base of providing products for naval reactors as an 
organization for nuclear powered submarines and aircraft 
carriers--and the cruisers have gone away, the cruisers have 
all been decommissioned--that product base where the supply is 
naval reactors has shrunk.
    Naval reactors has indicated that they are doing oK right 
now, but there is not a lot of other options for them to go to. 
And whereas you used to have companies that did work for naval 
reactors and for the commercial nuclear industry, now it is 
just sole source naval reactors. And so that has your overhead 
costs increased because they have a smaller customer base. 
Those kinds of issues are real.
    Mr. Shimkus. So in my couple seconds left, even former 
Energy Secretary Menezes mentioned that we have, we are the 
gold standard of engineering, development, construction. As we 
go through this high-risk profile of uncertainty do--and this 
is really you all kind of mentioned it in your opening 
statements--do we really believe that Russia and China, with 
their deployment and their construction, will be safer and 
trained better than if we were competitive in the world market?
    Ms. Korsnick, what do you think on, on safety, security, 
international aspects in this Russia, China, world leadership 
debate?
    Ms. Korsnick. I think if your question is is the United 
States still the best operators of nuclear plants today, it is 
unquestionable that we are. You can see with our strong 
operational record and our 90 percent capacity factor. So I 
would say we are by far the best from an operational excellence 
perspective.
    But at the end of the day, if the Chinese and the Russians 
are building the reactor, then that is the technology that is 
going to be out there, and that is the technology that people 
are going to want to understand how to operate and what to 
learn from. And that is why it, strategically, it is important 
for us to get our designs out there.
    Mr. Shimkus. Thank you. Thank you, Mr. Chairman.
    Mr. Olson. The gentleman yields back.
    The Chair now calls upon a Member who, during the first 
panel, is a big fan of Lynn Swann but not Harold Carmichael, 
the man from western Pennsylvania, Mr. Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman.
    Ms. Korsnick, I wanted to ask you a question about your 
testimony regarding NRC fee structures. Can you explain how the 
current fee structure penalizes reactor licensees that continue 
to operate if another licensee decides to discontinue 
operation?
    Ms. Korsnick. Well, right now the way that the structure 
has, across the licensees, 90 percent of the budget for the NRC 
needs to be collected from the licensees. And so as plants shut 
down there is just fewer to spread those costs across to 
achieve that 90 percent.
    Mr. Doyle. Yes. And I think H.R. 1320, the bill that 
Representative Kinzinger and I have introduced and which you 
highlighted in your testimony, would address this issue. And I 
appreciate you mentioning it in your testimony.
    Dr. Finan, in your written testimony you express similar 
concerns over the current fee structure of the NRC. In your 
testimony you urge, in preparation for the licensing of 
advanced reactors, consistent public funding for the agency. 
First, could you speak to what fee reform would be beneficial 
to the nuclear industry going forward, and what level of 
funding you would recommend?
    Dr. Finan. Well, the NIA supports reforms that address the 
NIA's fee structure. And in particular, H.R. 1320 would enable 
the NRC to use dedicated funds to prepare for advanced reactor 
reviews. That is an important part of that bill.
    It is also important that that authorization is paired with 
adequate appropriations to enable progress on that front. The 
NRC has identified figures of around $10 million per year as 
being adequate to support their ongoing effort.
    I think that, additionally, the NRC's current schedule is 
slower than the innovators would like to see. So if there is a 
way to bump that up a little bit and allow the NRC to 
accelerate and move faster, that would be well worth it.
    Mr. Doyle. Great.
    Can you tell me what other regulatory reforms you think we 
should consider to help spur deployment of advanced reactors?
    Dr. Finan. Well, I think that, you know, one important area 
is in the Part 810 reforms. We have issued a report recently 
recommending several reforms to Part 810. It is the export 
control regulations have evolved over the years. Initially 
there were 15 countries that required specific authorization. 
Over time, and by 2015 that had grown tenfold to 149. And in 
particular, in 2015 the number doubled from 75 to 149.
    That, paired with the very long review times are really 
putting our companies at a disadvantage overseas. So we need to 
address that. And we have made several recommendations 
regarding the DOE's processing structure and some other 
opportunities to move that faster.
    Mr. Doyle. Thank you.
    Ms. Korsnick, in your testimony you said the nuclear 
industry is at a crossroads. I want you to just elaborate on 
the current outlook for the nuclear industry.
    Ms. Korsnick. Well, I would say from a current outlook 
perspective, you know, five plants have shut down; eight plants 
have announced that they are going to shut down within the next 
several years. And those are ones that have just, as I said, 
given a specific date or a specific year that they are going to 
shut down.
    And there are a handful of others that are clearly 
challenged. I mentioned the power plants in Ohio, for example. 
Those were not included in the eight that we mentioned, but 
clearly are challenged to continue to operate.
    And so, if you look at that, you know, holistically, as I 
mentioned, it is more than 90 million megawatts of clean air 
energy that would be produced on an annual basis. That is a 
lot. And I know that there has been great technology in solar, 
and wind, and others that have been brought to bear. But we are 
digging a very deep hole for clean air that will be very 
difficult to fill. I would say it is not possible for the other 
clean air technologies to fill that.
    So we are simply, if you will, working backwards.
    Mr. Doyle. Why don't you also just speak a little bit about 
the economic benefit of the industry to our country? I think 
people----
    Ms. Korsnick. Well, yes, I mean it is powerful. I mean, 
somebody mentioned that we employ, you know, 500,000 workers 
both directly and indirectly. I think from a tax base 
perspective I think we contribute, you know, $16 billion, 
something of that magnitude, might be $12 billion. So, I mean, 
it is a very strong contributor, in fact, to our economy.
    I was a site vice president at a power plant in New York, 
and I saw firsthand the impact of these plants. You know, when 
I had to talk to the local mayor and the school superintendent 
about the possibility of the plant that I ran potentially 
shutting down, you know, they said, but, Maria, you are the 
school system. Right? We are so dependent on the tax base that 
you are to this local community that, you know, quite frankly 
they, they didn't really have a way to go forward without.
    And that is very typical of where these plants operate in 
the rural communities and towns that they are a part of. You 
know, they are a part of the hospital system, the police 
system, the school system. And, you know, they have been 
operating reliably for so many years.
    And I will remind you that when these plants were 
originally commissioned, you know, they were really 
commissioned for 40 years of operation. That 40 years has 
turned into 60 years. You just have a plant go forward this 
year that is taking that 60 years and asking for 80 years of 
operation. So these are gems. These are highly reliable, clean 
air technology. We are talking things that operate 80 years. 
And there is nothing magic about 80; they can probably go for 
100 years.
     So this kind of technology, this kind of investment, this 
is infrastructure in the United States, and we should look at 
it in that capacity.
    Mr. Doyle. Right. I see, Mr. Chairman. Thank you for your 
courtesy of letting--I just want to say as I close, as 
Commissioner Ostendorff said, that it is unwise for us to sit 
by and watch this industry decline because at some point 
decline becomes irreversible. I want you to know I couldn't 
agree with that statement any more. And I think we all need to 
take that very seriously.
    Mr. Chairman, thank you so much for your courtesy.
    Mr. Olson. Thank you. The gentleman's time has expired.
    To follow up on the gentleman's comments, Ms. Korsnick, you 
should know about South Texas Power Plant. When Hurricane 
Harvey hit the big power plant in my district had four coal 
generators and four natural gas. The coal got wet. All that 
coal is down. That nuclear plant kept running in the worst part 
of the hurricane. So that is an important part. It is reliable, 
it is there, it is clean, we have to make more of it.
    The Chair calls upon Mr. Flores from Texas for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman. I appreciate the panel 
sharing their enlightened responses with us today.
    Ms. Korsnick, I appreciate your answers to Mr. Doyle's 
questions about the impact that these plants have on the local 
communities. I was privileged in my first term to represent the 
Comanche Peak complex up in Somerwell County, Texas. And 
without those plants I mean there is no school system, no 
police. You are exactly right. There is no community. So I 
appreciate your comments on that.
    I am privileged to represent two tier one research and 
education universities: Texas A&M, which has a highly acclaimed 
nuclear program; and also the University of Texas which was the 
home to former NRC Commissioner Dale Klein.
    Mr. Ostendorff, as a professor of national security at the 
Naval Academy and as a former officer in the Nuclear Navy, are 
you concerned about whether young men and women who are looking 
at their future careers, including those at the Naval Academy, 
are you concerned about what they are going to think about the 
nuclear industry moving forward in light of its state today?
    Mr. Ostendorff. Yes, sir, I am. There is no, there is no 
question about it.
    I don't have any statistics to share with you, but I see 
midshipmen all the time. I have been an adviser to the Naval 
Academy's nuclear engineering program. And I have spoken at the 
University of Texas, their engineering program, about nuclear 
issues when I was a Commissioner. And I see people saying, 
young people today in their twenties and early--I would say in 
their twenties, they are really looking ahead. What are the 
options out there for me 10 years, 20 years from now? And they 
are taking a very calculated look at what opportunities exist 
or do not exist.
    And as Maria has said, when you have five plants that are 
shut down, eight more have announced to shut down, the signals 
are there. There is no ambiguity about the current status of 
the nuclear industry. And I have very strong feelings that that 
is a negative signal for people to want to pursue that.
    Mr. Flores. OK. Just in a few seconds each, does anybody 
else on the panel have any comments on that issue?
    Dr. Peters. Yes, I would, I would comment on that. Just 
reemphasize that, well, just briefly, I was at Texas A&M in 
November for an interaction between the laboratory and Texas 
A&M. And I was enthused by, I was in a room of about 100 
students, and I got inundated with questions afterwards, 
including resumes and whatnot. So that is a good thing.
    But I think that is fleeting. If we don't--you know, that 
will go away. Five years from now, that will not be the same 
room if we don't do something now.
    Mr. Flores. Right. And I appreciate Ms. Korsnick's comments 
and also Dr. Finan's comments about we, as policy makers, have 
to invest in helping to have a healthy nuclear industry moving 
forward.
    Would anybody on the panel like to comment about the role 
of university nuclear programs and how these programs interact 
with ongoing research, and industry, and issues as we move into 
advanced nuclear? Anybody have any comments?
    Dr. Peters. Well, they are vital. We have close 
partnerships, the laboratories all work closely with the 
nuclear universities, the universities with nuclear programs 
across the Nation. They are vitally important.
    And maintaining their infrastructure is really important as 
well. So the research reactor, like at Texas A&M for example, 
and other universities, because that teaches the kids how, not 
only how to operate reactors but also the kind of research that 
you can do in those reactors. So that is all very, very 
important.
    But also, more collaborative programs, having DOE and the 
NRC continue their graduate fellowship, fellowship programs. 
And that is always something we collectively support up here, I 
know. But also more collaborations where we bring more kids to 
the lab for internships and whatnot. And we are working that 
very actively.
    But they are vital. That is the pipeline. If we don't keep 
those alive, we are in trouble.
    Mr. Flores. Dr. Finan, you look like you would like to add 
something.
    Dr. Finan. I would just add that the university programs 
and the students play a vital role in inspiring the industry 
and the labs to think differently and to do things in a more 
innovative way. So they are really crucial, not just as a 
pipeline but as driving the industry to think big.
    Mr. Flores. OK, thank you.
    Anybody else on this?
    [No response.]
    Mr. Flores. OK. Thank you for your participation today. I 
yield back.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the pride of Saratoga Springs, New York, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. There you have it. Welcome, everybody.
    I always am quoted as saying I want the United States to be 
the leader of the global clean energy economy. And that 
certainly includes advanced nuclear.
    It seems clear from today's testimony that other countries 
around the world are overtaking us in commercial nuclear 
energy. Other nations see the need for clean energy as well as 
the export market opportunities. So there is a big question of 
what will be the consequences of nations like Russia or China 
dominating the global market.
    And I know that, Dr. Finan, you had provided some examples 
of that in earlier questioning.
    But, Dr. Peters, I believe our Nation has a tremendous 
advantage over our global competitors due to having the best 
facilities and universities in the world. You just made mention 
of that partnership of the labs. Can you drill down a little 
deeper for us about the importance of funding for our national 
labs and how they interact with the Department of Energy in 
terms of support for R&D investments, and what that means to 
our advanced nuclear research agenda?
    Dr. Peters. Sure. So the labs as a whole, across all of the 
DOE research portfolio, have--there is a partnership associated 
with it. There is the oversight component. But I feel very good 
about the partnership and helping set the research agendas from 
the Office of Science, which you are familiar with in 
Brookhaven, over to the applied programs like nuclear.
    As you heard Mr. McGinnis say earlier, a small number of 
the labs, including INL, work very closely with them to help 
set the research agendas. So I feel good about the partnership.
    I can't say, I can't agree more on the need for stable, 
stable research funding, and not having this up and down, up 
and down. We are maintaining large facilities. We are retaining 
world class workforce.
    I would also say it is, it is a question of maintaining 
international leadership because other countries are trying to 
emulate the national lab system.
    Mr. Tonko. Yes.
    Dr. Peters. That is going on across the world.
    Mr. Tonko. It is interesting that you point out the 
certainty level.
    Dr. Peters. Yes.
    Mr. Tonko. And where we have been losing some people in an 
international competition, where it may not even be about the 
applied salary as opposed to that the certainty is there.
    Dr. Peters. Right.
    Mr. Tonko. There is this long-term commitment. And I am 
hearing that now in your statement.
    Dr. Peters. Yes. The lab records as a whole have concerns, 
lack of stability. We have exciting work to do. That is never a 
question. It is the lack of certainty from year to year that 
does tend--and it is either folks who perhaps foreign nationals 
who work at the lab, which are an important part of the lab, 
who go back to their home country. Or, for that matter, U.S. 
people who go to a university to work, or over to industry.
    And I always say I am not afraid to lose good people if it 
is for the right reason. But that is not the right reason.
    Mr. Tonko. Yes, absolutely.
    And, Mr. Ostendorff, you made some very strong comments 
about human infrastructure with which I completely agree. A 
great point that you made. And this sector needs our Nation's 
best engineers and scientists. And I have been able to meet 
with amazing young people pursuing these careers in my 
district. Sailors training at Kesselring in Saratoga County; 
nuclear engineers over at RPI, some of whom have gone on to 
work at Knolls Atomic Power Lab in Niskayuna.
    And the failure to develop the next generation of nuclear 
technology, coupled with the decommissioning of our existing 
nuclear fleet, would certainly hurt our ability to maintain an 
industrial base, supply chain, and the necessary human 
infrastructure in order to have the United States be a global 
leader.
    If those capabilities go away, can you explain the 
difficulty to rebuild that infrastructure, the human 
infrastructure?
    Mr. Ostendorff. Just a real quick comment. I lived in 
Saratoga Springs 6 months in 1977 going to Ballston Spa 
prototype, S3G core-3. So I----
    Mr. Tonko. Good choice.
    Mr. Ostendorff [continuing]. Know that area well.
    But and the people there were military and civilian. 
General Electric had the contract. And so we were working with 
a mixed workforce where people took great pride in this. And 
others, you know, Dr. Finan has very capably mentioned the 
security aspect, knowing what the future presents as far as 
opportunities, that is very essential. And people will beat 
their feet to go elsewhere if they don't have the 
opportunities.
    And very quickly, we have seen, Ms. Korsnick is more of an 
expert on this than I am, but I saw as NRC Commissioner how 
hard it was for us to start the construction of the AP1000 
reactors in the United States. Just look at Lake Charles, 
Louisiana--I grew up in Louisiana, so I can say this--they 
struggled mightily to develop the modular construction for 
these containment pieces that, because we had not done that for 
many years, didn't have welding qualification standards in 
place, did not have the NQA-1 nuclear stamp processes. Those 
things are much better today than they were, but back in 2012 
when construction started it was not going that well.
    And so I think we should not underestimate how hard it is 
to resume something after a long hiatus.
    Mr. Tonko. Thank you. That is a very helpful insight.
    So, with that, Mr. Chair, I yield back.
    Mr. Olson. He yields back.
    The Chair now calls upon a Member who is from one of six 
States that were a part of the Republic of Texas, Mr. Mullin 
from Oklahoma.
    Mr. Mullin. Oh, my goodness. If you didn't have such a good 
baseball season, I would make some wisecrack about our great 
football season.
    Hey, Mr. Ossendorff--am I saying that right?
    Mr. Ostendorff. Ostendorff.
    Mr. Mullin. Ostendorff. All right. I apologize about that.
    Thank you, first of all, the entire panel for being here. 
It is very enlightening for all of us and for Congress as a 
whole.
    But, you know, for years the U.S. led in nuclear power. And 
as we have said multiple times already here, you know, China 
has quickly taking that role. Strategically speaking what does 
that, what does that mean for the U.S.? What does that mean for 
the future of our nuclear power and the stability, even on 
national security issues, for us moving forward?
    Mr. Ostendorff. So let me give you these two examples. I 
will use the one I was personally involved in was the aftermath 
of the March 2011 Fukushima event.
    Mr. Mullin. Right.
    Mr. Ostendorff. The United States' industry, NEI, U.S. 
industry, NRC, Department of Energy, State Department played a 
major role in helping Japan look at how to move forward. We 
would not have had that opportunity if we were not operating 
the largest reactor fleet at the time, period. There is no 
question about that. We were a key player, Japan looked to us. 
And I think we added a lot of value to nuclear safety 
worldwide.
    Second area let's talk about, and others have mentioned, 
China and Russia developing new reactor technology. And I used 
to do a lot with Russia when I was an official of NNSA 10 years 
ago. Russia has significant technical capabilities on the 
engineering side; a long history of nuclear engineering on the 
commercial side; and then their submarine force. Our ability as 
a country to influence future nuclear standards going forward 
is almost nil if we are not doing something ourselves in the 
United States.
    Mr. Mullin. Good point.
    Mr. Ostendorff. And if we are not a player, we don't get a 
voice. It is as simple as that.
    Mr. Mullin. So how would you think that plays into our 
national security risks?
    Mr. Ostendorff. So, one example I would just offer: our 
ability as a country to have an understanding of what other 
countries' abilities are in uranium enrichment, the ability to 
produce weapons grade material for a bomb. Our understanding of 
other countries' ability is informed by people like Dr. Peters 
and INL staff, because they are doing research, they have the 
technology every day.
    So, not to get into classified issues, which is not the 
purpose of us being here, but there is a nexus with 
understanding other countries' capabilities by being involved 
in nuclear technology, research, and development.
    Mr. Mullin. So is it safe to say because of our lack of 
really moving forward with our nuclear technology and the 
nuclear power that we have, and it seems that we are drawing 
backwards, is there going to be a drain on the expertise of 
personnel that is going to be available to be able to 
understand where to move to, understand what our threats are 
and what the future holds for it?
    Mr. Ostendorff. I think we will always have dedicated 
Americans ready to work and support Department of Defense, 
intelligence community, and so forth. However, in many cases 
they leverage the research done, Argonne National Laboratory, 
Los Alamos, Lawrence Livermore, and so forth. They also 
leverage the lessons learned from the NuScale, looking at their 
SMR designs.
    And so as we decrease that reactor technology R&D in this 
country there will be less of an opportunity for us to have an 
understanding of what is in the art of the possible elsewhere.
    Mr. Mullin. So just kind of an overview, could you tell us 
where you feel like the industry is headed, and in what areas 
we could help in?
    Mr. Ostendorff. Well, I think, as others have greater 
expertise than I will just give you my layman's version. Let me 
go back to Dr. Finan's comment. I think at this stage the 
Federal Government needs to invest. I think Department of 
Energy has done a very credible job of trying to support----
    Mr. Mullin. Invest in specific areas?
    Mr. Ostendorff. Oh, I am going to talk about small modular 
reactors just for a moment.
    Mr. Mullin. OK.
    Mr. Ostendorff. I think the small modular reactor work that 
Department of Energy, Office of Energy, Mr. McGinnis' group has 
been very good. I am not sure that is going to be sufficient to 
ensure that SMRs are going to be economically marketable.
    A former head of Naval Reactors talked about the building 
of the 18-unit Ohio Class submarines back in the 1970s and 
early 1980s. That former four-star admiral in a discussion 4 
years ago said that Naval Reactors learned about a 78 percent 
efficiency curve going from the first Trident submarine build 
to the 18th. We have to have X number of units to spread the 
risk out. It is just not going to be sufficient for the United 
States to build just one or two SMRs. We need to be able to 
spread that risk out over many more than that.
    I think perhaps the Federal Government has a role in 
investing in that project.
    Mr. Mullin. Yes. My time is out. Panel, thank you so much. 
Mr. Chairman, thank you so much for, for the time you allowed 
me, and I yield back.
    Mr. Olson. The gentleman's time has expired.
    The Chair now calls upon the gentleman from the Wolverine 
State, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel for being here. Having a nuclear power plant in my 
district, this is an important issue to understand.
    Ms. Korsnick, I understand that in addition to paying fees 
to the Nuclear Regulatory Commission, commercial nuclear power 
plants also fund FEMA's REP program as well. Industry fees I am 
told total over 30 million annually to support FEMA's efforts 
to coordinate State, local, and Tribal governments to plan, to 
train, and conduct preparedness exercises in the event of a 
radiological emergency, which we hope never takes place.
    This program supports some important activities. However, 
given the ongoing cost pressures on our fleet of nuclear 
reactors I want to be assured that these fees are only directed 
to activities that support the program's mission.
    And so, Mr. Korsnick, are you aware of this program? And 
secondarily, what sort of oversight is necessary to make sure 
the program is run efficiently?
    Ms. Korsnick. Yes, thank you. I am aware of the program. 
The program, it stands for Radiological Emergency Preparedness 
Program. And we actually are very concerned, relative to the 
transparency, of how these funds are being spent. I do think 
that it is important. And we ask, in fact, this committee as 
oversight to help us gain that transparency.
    Because right now, although we put in a sufficient amount 
of those funds--and you mentioned, you know, $30 million--it is 
very difficult to appreciate exactly how these funds are being 
spent. And, in fact, there has been allegations to suggest that 
they are being spent on non-REP activities.
    Mr. Walberg. Do you have any examples of that?
    Ms. Korsnick. Well, I can just say that there has been 
allegations that were made. I don't personally, I can't 
personally substantiate the veracity of those allegations. But 
we do suggest that an audit of those funds would be 
appropriate.
    Now, would this, this audit provide that transparency that 
you are seeking? And how? Is there a mechanism--help me out 
with that--is there a mechanism by which if you did have an 
audit that that information could be transparent to you and be 
useful?
    Ms. Korsnick. Yes. And I guess what I am suggesting is I do 
think that that would be an important thing to take on. Perhaps 
that is something that this committee, with your jurisdiction, 
could help encourage that such an audit would be performed.
    And then, of course, depending on the results of that 
audit, obviously, you know, we could be the best next steps 
going forward. Would there be some additional transparency 
requirements, different reports perhaps that would need to be, 
that would need to be made?
    But I think a good first step is to get an audit.
    Mr. Walberg. OK. Any further, anything from the rest of the 
panel?
    [No response.]
    Mr. Walberg. Thank you, Mr. Chairman. I yield back.
    Mr. Olson. The gentleman yields back.
    The Chair now calls upon the gentleman from the Palmetto 
State, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Well, Mr. Chairman, I am surprised that you 
know that we are the Palmetto State, but we are glad we are 
because 57.6 percent of the State's electricity comes from 
nuclear power. So, very apropos to the hearing today.
    Captain Ostendorff, you mentioned in your opening statement 
that a prerequisite for national security is energy national 
security. And I couldn't agree with you more.
    First off, thank you for your service to our country in the 
United States Navy and all that you continue to do training the 
young men and women of the future in the Navy today.
    You also mentioned it is imperative the U.S. remain a 
global leader in nonproliferation efforts. And this depends 
upon as domestic, commercial activity increases. The President 
mentioned in his State of the Union a push for a robust 21st 
Century nuclear program for our nuclear arsenal, deterrence, 
and all that goes along with that.
    Nuclear energy has almost zero emissions. That is a good 
thing. But as we create that energy we also create nuclear 
waste. Oconee Nuclear Station and Oconee County, South 
Carolina, has about 40 years' worth of nuclear waste sitting on 
site.
    The Vogtle Plant probably has the same amount.
    So we have got all this nuclear waste sitting on site in 
dry cast or wet storage at nuclear production sites. We have in 
the nuclear weapons arsenal production, whether it is what 
happened at Hanford or Savannah River Site creating our nuclear 
arsenal, we have a lot of yucky stuff that is being taken out 
of the ground through environmental management efforts. And a 
cleanup site at Hanford and the EM down at Savannah River Site, 
we could go through Idaho and Oak Ridge and all these others, 
but at the end of the day we end up with a lot of yucky, highly 
radioactive waste, whether it is in the tank farms or whether 
it is the spent fuel rods that are sitting in dry and wet 
storage around the country. And you heard Shimkus, Chairman 
Shimkus mention earlier about Yucca Mountain.
    We need as a nation to embrace the law of the land, which 
is a long-term, stable storage facility. After all the science, 
all the money, everything, taking money from ratepayers in 
South Carolina to create Yucca Mountain as a long-term storage 
site, but yet it sits in mothballs because of politics. But the 
law of the land is the law of the land. So we need to do 
something with that waste.
    Take that in consideration of what happened in South 
Carolina this year. I am a proponent for nuclear energy. I 
think it is a great source of electricity to meet the 21st 
Century and beyond, electricity needs to manufacture, heat and 
cool our homes, or whatnot, possibly power our cars. And we 
need to build more nuclear power plants in this country because 
we have aging nuclear reactors around the country. Whether that 
is California or South Carolina, the facts are the facts that 
they are aging.
    And we are starting actually to decommission some reactors 
in the Northeast. And some of those decommissioned reactor 
parts, reactors parts come to South Carolina to a storage 
facility in Barnwell, low--level nuclear waste facility.
    So if we are going to build new nuclear plants we need 
something to change, because what we just saw in South Carolina 
was 7, 8 years into a project to build two new nuclear 
reactors, and the company made mistakes, defaulted, and that is 
mothballed. Billions of dollars, tens of billions of dollars 
invested and two new nuclear reactors in South Carolina that 
will never come online.
    So going forward, wanting nuclear reactors and nuclear 
power to be a part of our energy matrix, how do we ensure for 
the investors that are going to be needed that if you invest 
tens of billions of dollars, mainly because of the regulatory 
environment that we have, the length of time it takes to permit 
a new power plant, how are we going to assure them that you 
best invest those tens of billions of dollars--and there are 
years of investment, time investment--how are we going to 
assure them that 7, 8, 9 years down the road, the rug isn't 
going to be pulled out from under that project and those 
investors are going to lose that money? The ratepayers that had 
to pay extra are going to lose that money, as what is happening 
in South Carolina.
    The General Assembly is debating this issue today on what 
ratepayers do. So how do we assure the investors, how do we 
assure the Nation we are going to meet our energy needs, we are 
going to be able to invest those large dollars?
    I guess where I am going is how can we do it cheaper, 
better, faster to bring nuclear online? Is it small modular 
reactors? Is it shrinking the permitting process? Is it 
creating several pre-approved plants for nuclear reactors and 
replicating those, versus having a brand new permitting process 
over and over and over? What is the answer? Captain?
    Mr. Ostendorff. Wow, there is a lot there. Yes, sir.
    Mr. Duncan. And I am last, so you might have a few extra 
seconds.
    Mr. Ostendorff. I think I would on the construction fees, 
again I am not, I am not a construction expert. I have been, 
because I have been to Summer many times and Vogtle many times, 
and Watts Bar 2 when there was a resumption of construction 
there starting 6 years ago. I have seen the NRC resident 
inspectors and construction inspectors working. I have seen the 
industry working. And I think one overarching piece of this is 
when you don't do something for many years it is extremely 
difficult to start it up and do it error free the first time.
    It is not an excuse. It is not a justification. It is just 
a fact of life, human nature.
    Some of the construction delays were associated with 
inadequacy of completion of engineering drawings at Summer, at 
AP1000. Summer was the--earlier I mentioned the construction, 
the modular components for containment, there were welding 
problems, quality assurance problems. I would say that those on 
much better track today in 2018 at Vogtle than they were 5 
years ago at Summer, even 3 years ago at Summer.
    So part of this is, we have to recognize when you have a 
process that sits in mothballs for a number of years and you 
don't exercise it, you should not be surprised that there be 
problems starting it back up. That is one piece.
    Small modular reactors I think are very promising. The 
earlier panel talked about that at some length between 
Department of Energy and NRC. I think there is a lot of promise 
there. At the same time, I think in order to see that move out 
there has to be a number of buyers to make economic sense for 
NuScale. And I think the Federal Government perhaps has a role 
to play there in investing. Dr. Peters has talked about that in 
his testimony.
    The third piece--and I will stop there due to time--is, and 
Ms. Korsnick mentioned it, I do think there is a role for 
Congress to look at the market structure.
    Anecdote: Fall of 2015, when I was NRC Commissioner, we 
were meeting at FERC headquarters. Every other year we met with 
the FERC group. And closure of Pilgrim in Cape Cod, 
Massachusetts, was being discussed. This is 2 years and 3 
months ago. This was November of 2015. And one of the staff 
individuals said, Hey, Pilgrim is going to shut down in 2019, 
and 50 percent or more of the carbon-free electricity in 
Massachusetts will go away.
    And I asked the Chairman of FERC and his Commissioner 
colleagues, ``Is that a concern to FERC?''
    And he said, ``No, Commissioner Ostendorff, it is not. Our 
job is to provide the lowest cost possible to the consumer.''
    And so, without some rethinking of what the role nuclear 
plays in the future, what a sabbatical from nuclear means for 
the ability to bring it back up 50 years from now, I think 
there is a value judgment to be made, a chance to look at 
markets and how we look at reliable baseload, carbon-free 
generation, and what human capital expertise that is unique to 
this technology that merits further investment.
    Mr. Duncan. Mr. Chairman, I appreciate the extra time.
    At any given time we have in this country over 100 small 
reactors floating around the seas of the world in the United 
States Navy without any mishap. That ought to be considered.
    And also, as we continue to look at the nuclear weapon 
enhancement that the President talked about, remember, there is 
going to be yucky stuff as a residual.
    And with that, I yield back.
    Mr. Olson. I thank you. Before my friend leaves, you talked 
about the safety of our nuclear submarines. We have lost two. 
We have lost the Scorpion and the Thresher. Both sunk 
dramatically. And what happened, though, the design, the scram 
sets itself down. It worked perfectly.
    The Scorpion was coming back home from deployment; never 
showed up. It took us a couple months to be able to find her, 
like 12,000 feet of water. We go there about every 5 years just 
to check out to make sure there is no radiation coming from 
her. It sank in 1968. Not one thing has come out over almost 50 
years. That is safety.
    And seeing there are no further witnesses of which to ask 
questions, I would like to thank all, all the witnesses for 
being here today on the 98th day of the Astros being the world 
champs in baseball.
    And before we conclude our last break, I would like to ask 
consent for one document for the record, a document from 
Uranium Producers of America. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Olson. And pursuant to committee rules, I will remind 
all Members that they have 10 business days to submit 
additional questions for the record. And I ask that the 
witnesses submit their responses within 10 business days upon 
receipt of those questions.
    Without objection, this committee is adjourned.
    [Whereupon, at 2:17 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:] 
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    

                                 [all]

</pre></body></html>
